<html>
<title> - ESTONIA, LATVIA, AND LITHUANIA AND UNITED STATES BALTIC POLICY</title>
<body><pre>[Senate Hearing 105-651]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-651


 
     ESTONIA, LATVIA, AND LITHUANIA AND UNITED STATES BALTIC POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
 50539 cc                   WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD. G LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Grossman, Hon. Marc, Assistant Secretary of State for European 
  and Canadian Affairs...........................................     2
    Prepared statement...........................................     7
Krickus, Dr. Richard J., Department of Political Science, Mary 
  Washington College, Fredericksburg, Virginia...................    21
    Prepared statement...........................................    23
Plakans, Dr. Andrejs, Department of History, Iowa State 
  University, Ames, IA...........................................    26
    Prepared statement...........................................    29
Raun, Dr. Toivo, Department of Central Eurasian Studies, Indiana 
  University, Bloomington, IN....................................    33
    Prepared statement...........................................    37

                                Appendix

Remarks by Strobe Talbott at U.S.-Baltic Partnership Commission, 
  Riga, Latvia, July 8, 1988, with attachments...................    49
Letter from the Joint Baltic American National Committee, Inc....    53
Statement of the Central and East European Coalition.............    54
Letter from Lithuanian-American Community, Inc...................    55
Letter from Baltic American Freedom League, Inc..................    57
    Baltic American Freedom League's Policy Statement............    58

                                 (iii)



     ESTONIA, LATVIA, AND LITHUANIA AND UNITED STATES BALTIC POLICY

                              ----------                              


                        WEDNESDAY, JULY 15, 1998

                               U.S. Senate,
                   Subcommittee on European Affairs
                     of the Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith, [chairman of the subcommittee], presiding.
    Present: Senators Smith and Biden.
    Senator Smith. Ladies and gentlemen, we will call to order 
this committee hearing of the European Subcommittee of the 
Committee on Foreign Relations. It is a pleasure to welcome you 
all here, and particularly Assistant Secretary Marc Grossman, 
to testify on U.S. Baltic policy.
    Specifically, the subcommittee will review the current 
state of affairs in Estonia, Latvia, and Lithuania, and the 
goal of U.S. foreign policy in these countries. Mr. Grossman's 
testimony will be followed by that of three outside experts, 
Dr. Richard Krickus of Mary Washington College, Dr. Andrejs 
Plakans of Iowa State University, and Dr. Toivo Raun of Indiana 
University.
    We thank these gentlemen. I apologize if I mispronounced 
your names. We thank you for your willingness to help us better 
understand the state of affairs in these three important 
countries.
    In 1991, after nearly a half century of occupation, 
Estonia, Latvia, and Lithuania regained their independence, yet 
while these two halves of Europe are no longer separated by 
concrete walls or opposing armies, a division persists in the 
minds of many, who simply cannot comprehend the meaning of the 
end of the cold war.
    With the end of the cold war, every single nation in Europe 
has earned the right to choose democratically the direction of 
their policies, and the institutions they will join to ensure 
the prosperity and security of their citizens. Those who seek 
to block the aspirations of democratic Governments to develop 
the fullest potential of their own nations in this regard stand 
against the tide of history that brought down the Berlin Wall.
    I am encouraged by United States policy toward Estonia, 
Latvia, and Lithuania, a product of close consultation between 
the executive branch and Congress.
    Mr. Grossman, I commend you and your staff for developing a 
creative, realistic policy that offers the possibility of 
integrating Estonia, Latvia, and Lithuania fully into the 
community of Europe and the United States.
    Last May, when 59 U.S. Senators voted to reject any 
arbitrary pause on consideration of future NATO members, the 
Senate sent an unmistakable message that Poland, Hungary, and 
the Czech Republic are not just the newest and will not be the 
last countries to be considered for NATO membership. I am 
confident that a substantial majority in the Senate still 
welcomes the aspirations of Estonia, Latvia, and Lithuania to 
join NATO, and will work closely with the administration over 
time to achieve that reality.
    In the interim, we seek new ways to promote the prosperity 
and strengthen the security of these three countries, and we 
must oppose any attempt by any other power to coerce these 
countries through force or economic pressure to change their 
democratic course. The cold war is over, and the ideology and 
geography of the former Soviet Union have, indeed, be consigned 
to history.
    I believe Senator Biden will join us shortly. He has just 
voted, and is on his way back, but Secretary Grossman, again we 
thank you, and we welcome, now, your testimony.

 STATEMENT OF HON. MARC GROSSMAN, ASSISTANT SECRETARY OF STATE 
               FOR EUROPEAN AND CANADIAN AFFAIRS

    Mr. Grossman. Mr. Chairman, thank you very much. It is a 
pleasure--really, it is an honor to appear before you today to 
discuss U.S. policy toward the Republics of Estonia, Latvia, 
and Lithuania. With your permission, Mr. Chairman, I thought I 
would read a shortened version of a longer statement which we 
would obviously submit for the record, if that would be 
acceptable to you.
    Senator Smith. It is. We welcome that.
    Mr. Grossman. Let me first of all pick up on a point that 
you made in your opening remarks, which is that my first job, 
really, is to thank you and all of your colleagues in the 
Senate and the House for your strong support of our policy not 
only in the Baltics but in Northern Europe generally. Our joint 
efforts have led to many accomplishments and, in fact, we 
certainly encourage travel by Senators, and I know Mr. Beigun 
and I have talked about the possibility of a Senate Foreign 
Relations Committee staff trip to the area, and we would 
certainly welcome that, because we believe that this policy is 
a result of close consultation and work that you and I and all 
of us have done together, so I thank you very much for those 
points.
    I would also like to thank you, if I could, for scheduling 
hearings tomorrow for our Ambassadors-designate to Estonia and 
to Latvia.
    Senator Smith. You are welcome.
    Mr. Grossman. Excellent nominees.
    Mr. Chairman, you have it right. This administration is 
proud of its Baltic policy. In fact, Secretary Albright often 
refers to the signing ceremony of the U.S. Baltic Charter in 
the East room of the White House this past January as one of 
the great days of her tenure as Secretary of State.
    At that signing ceremony, President Clinton said, ``that 
NATO's door is and will remain open to every partner nation, 
and America is determined to create the conditions under which 
Estonia, Latvia, and Lithuania can one day walk through that 
door.''
    Today, my job is to report to you on where we stand since 
the signing of the U.S. Baltic Charter of partnership on 
January 16 by President Clinton and the presidents of Estonia, 
Lithuania, and Latvia.
    Indeed, just last week, Deputy Secretary of State Talbott 
led the U.S. delegation to the inaugural meeting of the 
partnership commission set up under the charter.
    [See appendix for the July 8, 1998 remarks of Mr. Talbott]
    Mr. Grossman. With your permission, I would like to just 
step back for a moment and review our goals, our objectives, 
and then our accomplishments. This administration's Baltic 
policy--you can sum anything up in a short phrase. This 
administration's Baltic policy can be summed up in three words: 
Champion of integration. We want the United States to be the 
champion of integration of Estonia, Latvia, and Lithuania into 
European and transatlantic institutions. That is what the 
Baltic Charter is all about.
    Now, we have set ourselves the following goals in order to 
meet this requirement. First, we set out to manage the NATO 
enlargement process in a fashion that would not only increase 
the security of those who are currently invited to join the 
alliance, but also those who may join later or who may for 
their own reasons choose never to join.
    Second, we want to build a new Europe without dividing 
lines, as you say, where the old zero sum politics of the cold 
war are replaced by what Secretary Albright I think has very 
rightly called win-win mentality.
    Last week in Riga Strobe Talbott said, ``it is in the 
national interests of the United States that the Baltic States 
regain their rightful place in the European mainstream. The 
upheavals of the 20th Century have taught us that when any part 
of Europe is isolated, repressed, unstable, or torn by 
violence, the peace of the entire Euro-Atlantic community is at 
risk. We learned that lesson the hard way in the 20th Century, 
and we must apply it in the right way in the 21st.''
    The third goal. The Baltic Charter sends the message that 
we and the Baltic States share a common vision of a new Europe 
and a new Euro-Atlantic community, and that Estonia, Latvia, 
and Lithuania are part of that vision.
    The charter makes clear that the Baltics will not be 
excluded or discriminated against because of geography or 
history, or because of the injustices of the past. At the same 
time, the charter does not contain pre-commitments, but 
underscores that these States, like other aspiring countries, 
need to meet the same high standards that NATO sets for all new 
members, and the alliance as a whole must reach consensus that 
inclusion would serve our collective security interests.
    Let me highlight now our accomplishments and review our 
objectives for the future. Let me start, if I could, with some 
of the accomplishments in the political area. Mr. Chairman, one 
of the most important things we have done together in the 
political field is to provide a clear perspective for the 
eventual integration of these countries into European and 
Transatlantic institutions.
    We find that the leaders of these countries are no longer 
preoccupied that they might be left in some kind of a gray 
zone. Instead, they are focused on what they need to do to make 
themselves the strongest possible candidates for the future 
integration to European and Euro-Atlantic institutions. 
Politically, we are working together to consolidate the 
transition to democracy of these three countries.
    Let me give you some examples of how we are doing that. We 
are supporting the development of civil society, joining with 
the Soros Foundation to found and to fund the Baltic American 
Partnership Foundation, which will provide $15 million to 
develop and sustain local nongovernmental organizations in the 
Baltic States.
    In addition, we are assisting these countries, especially 
Estonia and Latvia, in the area of social integration, 
particularly in support of legislation that meets the OSCE's 
recommendations on citizenship, and so therefore we salute the 
Baltic States for the important steps that they have taken to 
translate these ideas in to reality.
    Throughout the debate on this important issue, the United 
States has supported those seeking to bring national 
legislation into conformity with OSCE recommendations and at 
the same time we have made it clear that the OSCE's 
recommendations are the only benchmark we recognize, and that 
we will not support any additional demands for moving the goal 
posts on these issues.
    We are also taking concrete steps to support the Riga 
Graduate Law School, which is being created by several Council 
of Baltic Sea States members. The school is an important effort 
to ensure that students from the Republics of Estonia, Latvia, 
and Lithuania, notably including ethnic minorities, will 
receive high quality legal training.
    One other point, Mr. Chairman. In May we salute the fact 
that Presidents Meri, Ulmanis, and Adamkus jointly announced 
that they would establish national commissions to study the 
period of the Holocaust and of the totalitarian rule in each of 
their countries.
    Our close political ties with Estonia, Latvia, and 
Lithuania extend to broad agreement on a number of key regional 
and world issues as well, and to cite just one example, earlier 
this year, when the United States sought support in the event 
that military action might be necessary against Saddam Hussein, 
Estonia, Latvia, and Lithuania all volunteered to send whatever 
support they could provide.
    Mr. Chairman, we have also had some accomplishments in the 
economic area I would like to report to you, because we see 
stronger economic and commercial ties with these three 
countries as critical to our overall strategy of integration, 
and to the prosperity and security of these countries.
    This spring, the economic bilateral working groups 
established under the Baltic Charter were held under the 
chairmanship of Under secretary of State for Economic Affairs 
Stu Eizenstadt, and with the Baltic countries we set priority 
issues to focus our efforts on energy, telecommunications, 
transportation, the environment.
    We are working closely with our embassies in the countries 
located on the Baltic. We are developing a regional economic 
and commercial strategy to bolster U.S. investment and to 
highlight the potential role of the three Baltic States as an 
economic platform from which companies can access markets in 
the European Union, the Baltic States, and in Northwestern 
Russia.
    Our strategy is designed to help the Baltic States regain 
the status and the role they once enjoyed as key trading 
partners at a time, now, when Northern Europe enjoys some of 
the fastest growing economies in Europe as a whole, but for 
this to happen, we need to encourage the Baltic States, and 
they need to see themselves as part of a larger market, not 
just the 10 million people in the Baltic States, but of 100 
million people in the Baltic region, the five Nordics, the 
three Baltic States, Poland, Russia, especially Northwestern 
Russia.
    We will pursue that strategy bilaterally as well as through 
regional organizations, such as the Council on Baltic Sea 
States, seeking to reduce regional trade barriers and to create 
a more attractive environment for regional and American 
businesses.
    In this connection we are reaching out to our private 
sector to engage American businesses, and at the inaugural 
Baltic Charter Partnership Commission last week in Riga, we had 
more than 30 business leaders from the private sector who 
identified 12 specific recommendations and offered to work with 
Government authorities to set up goals and timetables to meet 
these objectives.
    We want to employ, to use, to buildup the successful 
methods developed in partnerships like we have with the 
European Union in the Transatlantic business dialog to address 
key concerns of the private sector and to identify ways that we 
can help improve trade and investment links between the United 
States and the Baltic links, and to help make good on this 
commitment, the Department of Commerce has agreed to increase 
staffing at our embassy in Stockholm, adding an officer with 
regional responsibilities for Estonia, Latvia, and Lithuania.
    We also continue to support the Baltic-American Enterprise 
Fund, which provides an average of $1 million a month in loans 
and investments throughout the Baltic States, and in 3 years it 
has made over 100 business loans to and investments in small 
and medium-sized enterprises and approved more than 250 
mortgages to individuals.
    In this connection, I also think it is important to 
highlight, and there is more in my statement for the record, 
our very good cooperation in combating organized crime in the 
area, because we think that these joint efforts to combat crime 
address a real problem, help build regional and Transatlantic 
ties among law enforcement professionals, and hold out the hope 
of improving the business environment for local entrepreneurs 
and American business people as well.
    And finally, we continue to support the efforts of the 
three Baltic States to join the European Union, and obviously 
we are not members of the European Union, but our goal is to 
assure that our support for their aspirations is clear and 
consistent.
    Last January, President Clinton committed the United States 
to work to help these countries to gain entry into the World 
Trade Organization on the appropriate commercial basis.
    Finally, Mr. Chairman, a few words about security 
accomplishments, because we have made security cooperation a 
top priority in our relations with Estonia, Latvia, and 
Lithuania.
    Following Secretary Albright's visit to Vilnius last July, 
we agreed on the need to establish a long-term modernization 
plan for the defense forces of Estonia, Latvia, and Lithuania 
which would simultaneously strengthen their own self defense 
capabilities as well as their ability to contribute to European 
security, and last fall the Department of Defense took the lead 
in forming a team which was very successfully headed by Major 
General Buzz Kievenaar, who did a wonderful job that would 
assist the Baltic States in this effort.
    General Kievenaar's team assisted the Baltic countries in 
identifying current weaknesses in their defense forces, setting 
priorities as well as developing a force modernization plan 
that would allow them to develop small but modern and capable 
militaries. Each of the three Baltic States has welcomed these 
efforts, and is currently incorporating many of the details 
into their own national defense planning priorities.
    Of course, defense modernization is only one aspect of 
security in today's Europe, and together with our Baltic 
partners we have also identified confidence-building measures 
and arms control as two additional elements that could 
constitute an overall package approach to security in the 
region.
    Now, the Baltic Security Assistance Group, which is NATO 
members and non-NATO members, serves as a forum for 
coordinating donor assistance to the Baltic States, and we want 
to help the Baltic States improve their defense capabilities. 
It will also be an important forum for implementing the 
priorities identified by the DOD study and incorporate it into 
national defense plans.
    The program such as BALTSEA, the Baltic Battalion, the 
Baltic Air Space Management regime, the Baltic Squadron, and 
the Baltic Defense College, have already helped these three 
countries to make a concrete contribution to their own national 
defense as well as to broader European security. Troops from 
all three countries have served as peace keepers in Bosnia.
    Tomorrow, 16 July, some 2,000 U.S. soldiers will join them 
in this year's Baltic Challenge, an annual, in the spirit of 
PFP exercise. This year's exercise will be hosted by Lithuania 
and will include troops from 11 participating countries.
    Last and far from least, with the cooperation of the 
Congress we have significantly increased the amount of security 
assistance for the Baltic States under the Warsaw initiative 
program to $18.9 million. We hope to maintain a similar level 
for fiscal year 1999 to help the Baltics meet the challenges 
identified by the DOD study.
    Mr. Chairman, I said in my opening few paragraphs that we 
see our relationships with the Baltic States as part of our 
larger effort to do the right thing in Northeastern Europe, and 
to do that we need to talk, obviously, about Russia, and so I 
would like to just say a few words, if I could, about relations 
there.
    We all recognize that the relations of the three Baltic 
States with Russia is one of the most acute challenges we face 
in our common efforts to enhance democracy, prosperity, and 
stability throughout the region. For their part, the Baltic 
peoples harbor deep anxiety and suspicion about Russian 
motivations and the Russians, too, worry about the prospects of 
the Baltic States fulfilling their absolutely legitimate desire 
to join NATO.
    President Clinton and Secretary Albright believe that it is 
in the Russians' interests to get over this particular concern, 
and this applies to the issue of NATO enlargement in general, 
as well as the specific issue of possible Baltic membership in 
the alliance.
    In a speech last year at Stanford, Strobe Talbott said, and 
in the final analysis, Russia will have to make that adjustment 
by itself, by its own lights, and for its own reasons, but we 
and our European partners can help.
    We can help by applying the same general principle of 
inclusiveness in specific instances, and that means promoting 
Russia's involvement to the greatest extent possible in the 
cooperative development along the Baltic littoral.
    Working with the Baltic States, our goal is to convince 
Russia to see this area not as a zone of influence, not as a 
buffer against nonexistent enemies, but as a gateway outward to 
the new Europe, of which Russia seeks to be an increasingly 
active partner.
    Mr. Chairman, Northern Europe is an area where we can show-
case the strategy that you talked about, which is creating a 
win-win situation in the new Europe. Recently, the Economist 
Magazine referred to the region as undergoing a Baltic 
revolution, a tide of reform and integration that has made this 
region one of Europe's most promising.
    Last September in Norway, in fact the very first thing I 
did as Assistant Secretary of State for European and Canadian 
Affairs, we launched our Northern European initiative so that 
we could participate in and promote these trends.
    Our initiative consists of three tracks. The first is to 
help Estonia, Latvia, and Lithuania help themselves to become 
the strongest possible candidates for western integration.
    The second track is to build on the excellent ties and 
cooperation we enjoy with the Nordic countries on Baltic 
issues, and to expand such cooperation with others in the 
region such as Germany, Poland, and the European Union.
    The third and final track is to implement the kind of 
inclusive policy toward Russia that I described earlier. As a 
result, we have stepped up our efforts to support regional 
cooperation in these structures like the Council of Baltic Sea 
States, the Barents Euro-Arctic Council, the Arctic Council, 
each of which provides an effective forum for working alongside 
all nations of the region, including Russia, on a host of 
economic, social, and environmental issues.
    Mr. Chairman, achieving our goals will be far from quick 
and far from easy, but we have a common set of objectives, and 
increasingly a shared strategy. Moreover, we are all impressed, 
filled with admiration of how much the countries of Estonia, 
Latvia, and Lithuania have accomplished in the short time since 
regaining their independence.
    Thank you very much.
    [The prepared statement of Mr. Grossman follows:]
                  Prepared Statement of Marc Grossman
    Mr. Chairman, it is a pleasure to appear before you today to 
discuss U.S. policy towards the Republics of Estonia, Latvia and 
Lithuania. Let me first thank you and your colleagues in the Senate and 
the House for your strong support for our Baltic policy. Our joint 
efforts have led to many of our accomplishments. I would also like to 
thank you for scheduling the hearings tomorrow for our Ambassador-
designates to Estonia and Latvia.
    Mr. Chairman, this Administration is proud of its Baltic policy. 
Secretary Albright often refers to the signing ceremony of the U.S.-
Baltic Charter in the East Room of the White House this past January as 
one of the great days in her tenure as Secretary of State.
    My own interest in the Baltic states goes back 15 years to when my 
spouse served as the State Department desk officer responsible for 
relations with the Republics of Estonia, Latvia and Lithuania, whose 
occupation by the Soviet Union the United States never recognized.
    I had the opportunity to meet those courageous Ambassadors who kept 
hope alive, and to work with Members of Congress and other Americans 
interested in the cause of freedom. I could not help but sense the 
vitality of the Baltic peoples, their longing for freedom and their 
desire to regain their ties to the West.
    It has been a pleasure to renew my engagement with these countries 
and with northern Europe as Assistant Secretary of State. My first act 
overseas as Assistant Secretary of State was to represent Secretary 
Albright at a meeting of Nordic and Baltic Foreign Ministers to 
highlight our policy towards northern Europe in Bergeh, Norway in 
September 1997. Last month I represented the United States in Nyborg, 
Denmark at a meeting of the Foreign Ministers of the Council of Baltic 
Sea States where I talked about ways the United States can contribute 
to greater cooperation and stability around the Baltic littoral.
    Today I report to you on where we stand since the signing of the 
U.S.-Baltic Charter of Partnership on January 16 by President Clinton 
and the Presidents of Estonia, Latvia and Lithuania. At that signing 
ceremony, President Clinton said ``NATO's door is and will remain open 
to every partner nation, and America is determined to create the 
conditions under which Estonia, Lithuania, and Latvia can one day walk 
through that door.''
    We are now making good on that commitment. Just last week Deputy 
Secretary of State Strobe Talbott led the U.S. delegation to the 
inaugural meeting of the Partnership Commission set up under the 
Charter. Last Friday, Under Secretary Stuart Eizenstat was in Vilnius, 
representing the U.S. at a regional trade ministers conference to 
advance our participation in regional economic cooperation. With your 
permission, I'd like to review our goals and our activities.
Policy Goals
    Mr. Chairman, this Administration's Baltic policy can be summed up 
in three words--champion of integration. We want the United States to 
be a champion of the integration of Estonia, Latvia and Lithuania into 
European and transatlantic institutions. That is what the Baltic 
Charter is all about.
    In diplomacy, as in other walks of life, there is at times a 
temptation to ignore or defer on difficult or sensitive issues in the 
hope that they may somehow become easier to deal with in the future. 
The Baltic issue is a sensitive one. Some would suggest it be put in 
the ``too hard'' box.
    This Administration has adopted a different approach. From the 
outset, it recognized the importance and the sensitivity of the Baltic 
issue, especially in the NATO enlargement debate. This is one reasonwhy 
we set for ourselves the following goals:
    First, we set out to manage the NATO enlargement process in a 
fashion that not only increased the security of those currently invited 
to join the Alliance, but also those who may join later or who may 
choose never to join. That is why Secretary Albright says that she has 
spent as much time thinking about those countries not yet ready to join 
Western institutions as those which already have been invited.
    Second, we want our European strategy to foster building a new 
Europe without dividing lines, where the old ``zero sum'' politics of 
the Cold War are replaced by what Secretary Albright calls a ``win-
win'' mentality. During his visit last week to the region, Deputy 
Secretary Strobe Talbott said that ``it is in the national interest of 
the United States that the Baltic states regain their rightful place in 
the European mainstream. The upheavals of the 20th century have taught 
us that when any part of Europe is isolated, repressed, unstable or 
torn by violence, the peace of the entire Euro-Atlantic community is at 
risk. We learned that lesson the hard way in the 20th century; we must 
apply it in the right way in the 2lst.''
    Third, we designed the Baltic Charter to send the message that we 
and the Baltic states share a common vision of a new Europe and Euro-
Atlantic community--and that Estonia, Latvia and Lithuania are part of 
that vision. It makes clear that he Baltics will not be excluded or 
discriminated against because of geography or history and the 
injustices of the past. The Baltic states will enjoy a level playing 
field when it comes to their aspirations to join institutions such as 
the European Union or NATO.
    At the same time, the Charter does not contain precommitments. It 
is a politically, rather than a legally binding document. While the 
Administration can speak for itself, it cannot speak for NATO as a 
whole--nor for the U.S. Senate. The Charter also underscores that these 
states--like all other aspiring countries--must meet the same high 
standards that NATO sets for all new members. And, the Alliance as a 
whole must reach consensus that inclusion would serve our collective 
strategic interests.
    This is a race that the Baltic states have to run themselves. But 
they understand that this race is a marathon, not a sprint. The point 
is to stay in the race and finish. We can help coach them--and make it 
clear that one day we want them to successfully cross the finish line.
    Let me now highlight our accomplishments and review the objectives 
we have set for our future cooperation.
Political Accomplishments
    Mr. Chairman, one of the most important things we have accomplished 
together in the political realm is to provide a clear and shared 
perspective for the eventual integration of these countries into 
European and transatlantic institutions. The leaders of these countries 
are no longer preoccupied that they might be left in some kind of 
``gray zone.'' Instead, they are focused on what they need to be doing 
to make themselves the strongest possible candidates for their future 
integration into European and Euro-Atlantic institutions.
    Politically, we are working together to consolidate the transition 
to democracy in these three countries. We are supporting the 
development of civil societies, joining with the Soros Foundation to 
fund the Baltic-American Partnership Foundation which will provide $15 
million to develop and sustain local NGOs in the Baltic states.
    In addition, we are assisting these countries, especially Estonia 
and Latvia, in the area of social integration, particularly in support 
of legislation that meets the OSCE's recommendations on citizenship. In 
the Baltic Charter, all four of our Presidents affirmed a shared 
commitment to the rule of law and to the responsibility of all just 
societies to protect and respect human rights and civil liberties and 
vowed to work toward making inclusiveness and reconciliation watchwords 
for the future.
    We salute the Baltic states for the important steps they have taken 
to translate these ideas into reality. On June 22, the Latvian 
Parliament passed amendments to Latvia's citizenship laws to make the 
process of naturalization easier. To support the implementation of this 
new legislation, we have pledged $500,000 to a practical project which 
will assist the government of Latvia in carrying out the provisions of 
the new law.
    We also are taking steps to support the Riga graduate law school, 
which is being created by several Council of Baltic Sea States (CBSS) 
member states. The school is an important effort to ensure that 
students from the Republics of Estonia, Latvia and Lithuania, notably 
including ethnic minorities, will receive high-quality legal training 
in a range of subjects to help consolidate the rule of law, human 
rights and democracy in the region.
    Throughout debate on this important issue the U.S. has supported 
those seeking to bring national legislation into conformity with OSCE 
recommendations. While we salute the progress that Estonia and Latvia 
have made, we all understand that there is always room for improvement.
    At the same time, we have made it clear that the OSCE's 
recommendations are the only benchmark we recognize and that we will 
not support any additional demands or ``moving of the goal posts'' on 
this issue.
    Mr. Chairman, I'd like to mention one final example which 
underscores the commitment of these countries to the cause of 
reconciliation and justice, values we embraced in the Charter. In May, 
Presidents Meri, Ulmanis and Adamkus jointly announced that they would 
establish national commissions to study the period of the Holocaust and 
of totalitarian rule in each of their countries. We salute them for 
that.
    Our close political ties with Estonia, Latvia and Lithuania extend 
beyond bilateral issues. We are in broad agreement on a number of key 
regional and global issues. To cite one example, earlier this year, the 
United States sought support in the event that military action against 
Iraq might be necessary. Estonia, Latvia and Lithuania all volunteered 
to send whatever support they could provide.
Economic Accomplishments
    Mr. Chairman, we also see stronger economic and commercial ties 
with these three countries as critical to our overall strategy of 
integration and to the prosperity and security of these countries. We 
have stepped up our efforts to expand our bilateral economic relations 
with each of these countries. We want to promote a regional economic 
and commercial strategy that would attract American business and 
investment and support the economic integration of each of these three 
countries into the European Union as well as the World Trade 
Organization.
    This spring the economic bilateral working groups established under 
the Charter were held under the chairmanship of Undersecretary of State 
for Economic Affairs Stuart Eizenstat. They brought together 
representatives of a broad range of agencies and departments, from 
Commerce to OPIC and from Energy to Treasury to review with their 
counterparts the status of key economic, trade, financial and 
commercial issues. Together, we set priority areas in which to focus 
our efforts: energy, telecommunications, transportation and the 
environment.
    Working closely with our Embassies in the countries located on the 
Baltic, we are developing a regional economic and commercial strategy 
to bolster U.S. investment and to highlight the potential role of the 
three Baltic states as an economic platform from which companies can 
access markets in the European Union, Northern Europe, and Russia. The 
countries of Northern Europe are among the wealthiest in the world--and 
they have gained that prosperity in large part through trade. Our 
strategy is designed to help the Baltic states regain the status and 
role they once enjoyed as key trading partners at a time when Northern 
Europe enjoys some of the fastest growing economies in Europe as a 
whole. But for this to happen, the Baltic states must see themselves as 
part of a larger market--not just of 10 million in the Baltic states, 
but of 100 million in the Baltic region--the five Nordics, the three 
Baltics, Poland and Russia, especially the northwestern part. We will 
pursue that strategy bilaterally as well as through regional 
organizations such as the Council of Baltic Sea States (CBSS), seeking 
to reduce regional trade barriers, and create a more attractive 
environment for regional and American business. We also have been 
working with our allies and the European Union to make sure that our 
initiatives complement or bring ``value added'' to EU assistance 
activities that support these regional goals. To that end, Under 
Secretary of State Stuart Eizenstat attended the Council of Baltic Sea 
States (CBSS) Trade Ministers' meeting in Vilnius July 10. He 
reinforced our message that the reduction or elimination of barriers to 
trade is critical to regional development and prosperity.
    In this connection we are reaching out to the private sector to 
engage American business. At the inaugural Baltic Charter Partnership 
Commission meeting last week in Riga, more than 30 business leaders 
from the private sector met to discuss creating a partnership between 
the public and private sectors to boost U.S.-Baltic economic ties. We 
want to employ the successful methods developed in partnerships like 
the Trans-Atlantic Business Dialogue to address the key concerns of the 
private sector and to identify steps that can help improve trade and 
investment links between the U.S. and the Baltic states.
    This group identified 12 specific recommendations to the 
governments of the U.S., Estonia, Latvia and Lithuania and offered to 
work with government authorities to set up concrete goals and 
timetables to meet those goals. To help make good on that commitment, 
the Department of Commerce has agreed to increase staffing at our 
Embassy in Stockholm, adding an officer with regional responsibilities 
solely for Estonia, Latvia and Lithuania.
    We continue to support. the Baltic-American Enterprise Fund, which 
provides an average of $1 million per month in loans and investments 
throughout the Baltic states. In three years it has made over 100 
business loans to and investments in small and medium-sized enterprises 
and approved more than 250 mortgages to individuals.
    In this connection, I might also mention our cooperation in 
combating organized crime. In response to requests from the governments 
of Latvia and Lithuania, in recent months the FBI has supplied training 
teams to boost the skills of local investigators. More broadly, we have 
developed a strategy for cooperating regionally, notably with the CBSS 
Task Force on Organized Crime chaired by Sweden, to assist in the 
regional fight against crime. Such assistance and cooperation addresses 
a real crime problem, helps build regional and transatlantic ties among 
law enforcement professionals, and holds out the hope of improving the 
business environment for local entrepreneurs and American business 
people alike.
    Finally, we continue to support the efforts of the three Baltic 
states to join the European Union. While we are not members of the EU, 
our goal is to ensure that our support for their aspirations to join 
the EU is clear and consistent, while at the same time ensuring that US 
companies will not be unfairly disadvantaged as the Baltic states make 
necessary adjustments to bring them in line with the EU acquis 
communitaire. Last January President Clinton also committed the U.S. to 
work to help these countries gain entry to the WTO on the appropriate 
commercial basis.
Security Accomplishments
    Mr. Chairman, we have also made security cooperation a top priority 
in our relations with Estonia, Latvia and Lithuania. Following 
Secretary Albright's visit to Vilnius last July, we agreed on the need 
to establish a long-term modernization plan for the defense forces of 
Estonia, Latvia and Lithuania which would simultaneously strengthen 
their own self-defense capabilities as well as their ability to 
contribute to overall European security.
    Last fall the Department of Defense took the lead in forming a team 
(headed by Major General ``Buzz'' Kievenaar) that would assist the 
Baltic states in this effort. They conducted a baseline assessment of 
the current status of the national defense forces in each of these 
countries. Working together with Estonia, Latvia and Lithuania, 
Kievenaar's team assisted these countries in identifying current 
weaknesses, setting priorities as well as developing a force 
modernization plan that would allow them to develop small but modern 
and capable militaries. The study's emphasis on defense basics and 
quality of life issues will also help our partners plan their 
assistance requests. Each of the three Baltic states has welcomed these 
efforts and is currently incorporating many of the details into their 
own national defense planning and priorities.
    Defense modernization is only one aspect of security in today's 
Europe. Together with our Baltic partners, we have also identified 
confidence-building measures and arms control as two additional 
elements that could constitute an overall package approach to security 
in the region. On the margins of the Luxembourg NAC, we and our Baltic 
partners reached agreement on a ``common agenda'' on CSBMs and possible 
arms control measures.
    The Baltic Security Assistance Group (BALTSEA) serves as the forum 
for coordinating donor assistance to the Baltic states. This group 
brings together NATO and non-NATO countries committed to helping the 
Baltic states improve their defense capabilities. At quarterly meetings 
Baltic officials discuss their priorities and needs with DOD officials 
and their counterparts and coordinate progress on projects such as the 
Baltic Battalion (BaltBat), Baltic Airspace Management Regime 
(BaltNet), the Baltic squadron (Baltron), and the Baltic Defense 
College (BaltDefCol) BALTSEA will also be a critical forum for 
implementing the priorities identified by the DOD study and 
incorporated into national defense plans.
    Such programs have already helped these three countries to make a 
concrete contribution to their own national defense as well as broader 
European security. Troops from all three countries have served as peace 
keepers in Bosnia. The Baltic states have been active in PfP programs. 
Starting tomorrow (July 16), some 2,000 U.S. soldiers will join them 
for this year's Baltic challenge, an annual ``in the spirit of PfP'' 
exercise. This year's exercise will be hosted by Lithuania and will 
include troops from 11 participating countries.
    Last, but far from least, with the cooperation of Congress, we have 
significantly increased the amount of security assistance for the 
Baltic states under the Warsaw Initiative program to $18.9 million. 
This was a fourfold increase over previous years and reflects in large 
part the construction of the Baltic Regional Airspace Initiative. We 
hope to maintain a similar level for FY99 to help the Baltics meet the 
challenges identified by the DOD study.
Russia and the The Northern European Initiative (NEI)
    Mr. Chairman, I'd also like to say a word about another Baltic 
littoral country with which the three Baltic states share a complex and 
often tragic history. That country is Russia. We all recognize that the 
relationships of the three Baltic countries with Russia is one of the 
most acute challenges we face in our common efforts to enhance 
democracy, prosperity and stability throughout the region. For their 
part, the Baltic peoples harbor deep anxieties and suspicions about 
Russian motivations. The Russians, too, worry about the prospect of the 
Baltic states fulfilling their legitimate desire to join NATO.
    President Clinton and Secretary Albright believe that it is in the 
Russians' interest to get over this particular concern. This applies to 
the issue of NATO enlargement in general as well as the specific issue 
of possible Baltic membership in the Alliance.
    In a speech last year at Stanford University, Deputy Secretary 
Strobe Talbott said, ``In the final analysis, Russia will have to make 
that adjustment itself, by its own lights and for its own reasons. But 
we and our European partners can help.'' We can help by applying the 
same general principle of inclusiveness in specific instances. That 
means promoting Russia's involvement to the greatest extent possible in 
the political, commercial, environmental and other forms of cooperation 
developing among the states of the Baltic littoral.
    In the Baltic Charter we underscored our common interest in 
Russia's continued democratic development. Today we can support the 
forces of positive change in Russia by reaching out to that country in 
the same ways that the countries of the region are reaching out to each 
other. We regard expanded cooperation with Russia in this region as 
useful and productive--as long, of course, as it takes place within a 
framework of mutual respect for the sovereignty and independence of all 
nations, large and small. Working with the Baltic states, our goal is 
to convince Russia to see the Baltic states not as a zone of influence, 
not as a pathway for invading armies nor a buffer against non-existent 
enemies, but as a gateway outward to the new Europe of which Russia 
seeks to be an increasingly active part.
    Mr. Chairman, Northern Europe is an area where we can showcase our 
strategy of creating a ``win-win'' situation in the new Europe. 
Recently the Economist referred to this region as undergoing a ``Baltic 
Revolution''--a tide of reform and integration that has made this 
region one of Europe's most promising.
    Last September in Norway, this Administration launched a Northern 
European Initiative (NEI) to participate in and promote these positive 
trends. This is a region that includes some of our closest allies. 
While time does not permit me to detail our policy efforts in this 
area, I would like to note for the record that our working relations 
with the Nordic countries have become especially close in recent years.
    Our NEI consists of three tracks. The first is to help Estonia, 
Latvia and Lithuania help themselves become the strongest possible 
candidates for Western integration. A top priority has been to work 
together with other like-minded countries and to leverage our own 
efforts with those of other ``Friends of the Balts'' who share our 
vision and our goals.
    The second track is to build on the excellent ties and cooperation 
we enjoy with the Nordic countries on Baltic issues and to expand such 
cooperation with other actors in the region such as Germany, Poland and 
the European Union. Our objective is to form a broad based coalition of 
countries committed to working together to build democracy, prosperity 
and security in the region.
    The third and final track is to implement the kind of inclusive 
policy toward Russia I described earlier. As a result, we have stepped 
up our efforts to promote democracy, prosperity and security in the 
region by becoming involved in regional structures such as the Council 
of Baltic Sea States (CBSS), the Barents Euro-Arctic Council (BEAC) as 
well as the Arctic Council, each of which provides an effective forum 
for working alongside all nations in the region, including Russia, on a 
host of economic, social, and environmental issues.
Conclusion
    Mr. Chairman, achieving our goals will be far from quick or easy. 
But we have a common set of objectives and, increasingly, a shared 
strategy. Moreover, we are all impressed and filled with admiration at 
how much the countries of Estonia, Latvia and Lithuania have 
accomplished in the short time since regaining their independence.
    Thank you.

    Senator Smith. Thank you, Mr. Secretary. I wanted to give 
my colleague, Senator Biden, a chance for him to make an 
opening statement, but I want to do it first by singing his 
praises, because when the U.S. Senate took up the issue of NATO 
enlargement some of my colleagues made comments that, well, 
frankly, in light of history were rather offensive.
    Senator Biden, with great emotion and a lot of noise and a 
lot of feeling responded as truly a friend and a champion of 
the Baltic countries, so with that, I give you my colleague.
    Senator Biden. Well, thank you very much. Being educated to 
try cases, I was told if the witness said what you want, don't 
ask any questions, so I will put my opening statement in the 
record and wait for questions.
    I just would comment, though, that we have before us, I 
think, one of the most innovative members of the State 
Department. I have had a chance to work with him on other 
matters. He is what I think career diplomats should be. He 
knows the party line, follows what his President suggests, but 
is not at all timid in suggesting to the administration and to 
those who will listen innovative approaches to deal with 
problems. I am happy he is here.
    I know from my staff two of the three public witnesses who 
are going to testify, and we could not have a better panel to 
follow in terms of expertise on the Baltic states, and so I am 
anxious to hear the panel.
    [The prepared statement of Senator Biden follows:]
           Prepared Statement of Senator Joseph R. Biden, Jr.
    Mr. Chairman, I would like to commend you for having scheduled this 
hearing. Too often the smaller countries of Europe are neglected up 
here.
    Moreover, as we all know, we tend to hold hearings in response to 
crises, rather than regularly reviewing important issues and countries.
    But today we will examine Estonia, Latvia, and Lithuania--three 
small countries that, fortunately, are not in crisis.
    The Baltic states remind me of the ``small is beautiful'' dictum. 
But not only attractive, they are also important to this country.
    They are important because among the countries formerly under 
Soviet rule, the Baltic countries ranked near the top of the suffering 
list.
    Second, among the new independent states, the three Baltic 
countries have emerged as the most successful economically.
    Third, the Baltic states occupy an important piece of European real 
estate.
    And last but not least, several million Americans have ties of 
kinship to Estonia, Latvia, or Lithuania.
    As an American, I am proud that for a half-century our government 
never yielded to pressure to recognize the illegal occupation of the 
Baltic states by the Soviet Union.
    And as an American, I am delighted at the close and friendly 
relationships that have developed between the United States and each of 
the free and independent Baltic countries.
    I am eager to hear the Administration's views on U.S. policy toward 
the Baltic area from my friend Secretary Grossman.
    And I am also looking forward to in-depth analyses on current 
conditions in the three Baltic countries from our three expert academic 
witnesses.
    Thank you, Mr. Chairman.

    Senator Smith. Thank you, Senator, and your comments will 
be included in the record.
    Senator Biden. Thank you for the comments.
    Senator Smith. Secretary Grossman, when the Iron Curtain 
fell, Poland and Hungary and the Czech Republic made it real 
clear that they wanted inclusion in the West. It seems to me 
one of the conspicuous ways they did that was to change their 
laws with respect to visas, so they did not even require a visa 
of Americans. That led to lots of exchanges and lots of 
goodwill and helped to build a political constituency for their 
inclusion in this country.
    I wonder if you can comment about whether this is being 
done in the Baltics, and I do not want to set you up, but you 
know my frustration currently with the numbers of calls we 
receive from businessmen, from Baptist religious workers, from 
Mormon missionaries who have been expelled under visa 
requirements seemingly designed more to keep out spies than 
people of goodwill bringing capital or a religious message.
    Can you comment on the status and what, if anything--how 
can we respond, as U.S. Senators, to encourage the kind of 
openness these other new members of NATO have shown so that we 
can help these countries help themselves be included in the 
West?
    Mr. Grossman. Thank you very much. Before I answer that, if 
I might just thank Senator Biden for his kindness. We do the 
very best we can.
    Senator, let me say, as you and I have talked about this 
subject before, that I believe your philosophy--your first few 
sentences are one, exactly, that we share. We think that 
openness, inclusion, integration, welcoming people whether they 
are Americans or Europeans, or they are missionaries or 
business people, is all part and parcel of becoming part of the 
West, so I could not agree with you more that our common 
objective ought to be seeking the kinds of visa regimes and 
other regimes in countries that are open and transparent, and 
allow our citizens to travel back and forth.
    In the specific case that you mention, Estonia, if I could 
I would just make three points. One is that we understand that 
Estonia enacted new visa legislation in January which does 
restrict the ability of U.S. missionaries and business people 
to stay for longer than 90 days in any 6-month period and, in 
fact, our embassy in Tallinn was the very first group to alert 
Americans to this problem and are working very closely with 
American citizens in this regard.
    We have had a conversation, actually a number of 
conversations with the Estonian Government about this, and they 
assure us that the effect of this law on missionaries and 
business people was inadvertent, and what we said in response 
is, it is very important that they understand that people who 
are there to do business, are there on legitimate, 
international business, should not be subject to a restrictive 
visa regime because, as you say, it is a very important part of 
integrating into new European structures.
    I can report to you that Strobe Talbott, who was in the 
Baltic States last week, made this a very specific point of his 
presentation, and we have repeatedly urged the Government of 
Estonia to interpret its legislation as broadly as possible and 
to see if they cannot find some way, or establish a special 
visa category to deal with some of these concerns.
    I think the fact that you have raised this with me here in 
this hearing, the fact that we have tried to do some work, will 
alert people to this concern, and we need to continue to work 
together on it.
    Senator Smith. My first message to Estonia and the other 
countries, specifically Estonia is, I am their friend. I want 
to help and I want to be their champion on these issues that 
are so important to their security and their inclusion in the 
West, but it is hard. It is very difficult when Americans are 
not, frankly--are not very welcome in some circumstances.
    So if you can counsel us, if you see us stepping beyond the 
line or whatever, as their friends, to make these changes--we 
respect that they are a sovereign nation and can make laws, but 
I think that kind of openness and exchange are sort of a 
predicate for making much progress on much larger issues like 
inclusion in NATO. So enough said about that.
    I recall from a history lesson that in 1939 Stalin and 
Hitler signed a pact that essentially annexed the Baltic 
countries to the Soviet Union. Has that ever been renounced in 
Russia?
    Mr. Grossman. I do not believe so, Senator.
    Senator Smith. Is there any effort to renounce that? What 
is the status of that? Is that sort of seen as gone with 
Russia, or with the Soviet Union? Does anyone in Russia regard 
that now--in their Government, do they regard these countries 
as part of a deal they made?
    Mr. Grossman. Well, of course, I mean, our perspective is, 
we have to speak for ourselves, and this was, it seems to me, 
one of the single most important and steadfast policies of the 
U.S. Government for many, many years. I think both the Senate 
and the House and the administration, we can all be proud of 
the fact that we never recognized the forceful integration of 
those countries into the Soviet Union, and I think that is an 
important thing to remember.
    I really cannot speak on behalf of the Russians today. 
Actually, I met a gentleman here just before the hearing from 
the Baltic-American Freedom League who talked to me about this 
and said that they had sent some letters around. I have not 
seen the letter about renouncing this pact. It is something we 
would be certainly interested in looking at.
    From my perspective, I think the most important thing that 
we can do now is see if we can encourage this win-win attitude 
in the area, and that is, see if we cannot include the 
Russians, find ways to work with Northwest Russia, help the 
clean up of some of the environmental and other areas.
    So we have had a principled policy for a long time. We 
really cannot speak on behalf of anybody else. As I said, I 
would be glad to look at any recommendations, but we want to 
be, as we say, the champions of integration here.
    Senator Smith. Well, maybe it is all just so much of a sad 
history, but I wonder if President Clinton is planning in his 
meetings with President Yeltsin any discussion of the Baltics, 
and this relationship we are trying to forge with them.
    Obviously, we care about Russia's feelings, but we do not 
acknowledge any claim on those countries, sovereign countries. 
Do you know if this will be part of the agenda, and what will 
likely be said?
    Mr. Grossman. Well, I am sure that the President will be 
prepared to talk about our strategy in Northeast Europe. It is 
a natural thing to talk about, precisely because it involves, 
and we hope it involves in a positive way, Northwest Russia.
    So I would think that on a list of issues--and obviously I 
cannot speak for the President and have not seen his agenda, 
but I would think that he would want to and we would want to 
highlight the importance of our relationship with the Baltic 
States, what we are doing in Northeastern Europe, and how this 
can positively affect Russia and Russia's interest in the area.
    Senator Smith. Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. I would 
like to follow up on your first question and put it in a little 
bit of context with the Secretary, who I know knows the nuanced 
portion of what I am about to ask.
    The chairman and I just had the honor of hosting a luncheon 
for the President of Romania. Romania badly wants to be 
included in the second, as you foreign policy types say, 
tranche. I call it second round.
    Mr. Grossman. We will call it second round.
    Senator Biden. Second round, good. I am glad, because those 
of us who deal in foreign policy attach phrases to our actions 
that make us sound more important than we are. The things we do 
are quite frankly less complicated than working out HCFA at 
HHS, but we think they are more important and we act very 
important about it.
    At any rate, the second round, and I have been impressed 
over the last 2 years how very sophisticated and sensitive 
Romania and Romanian Americans have been about what they 
believe would appeal to Western Europe and to the United States 
in looking more favorably on their candidacy.
    For example, had the present President of Romania not taken 
the initiative relative to the Hungarian minority in his 
country there would be no possibility, none--zero, none--of 
Romania's being included in the second round, third round, 
fourth round, fifth round, any round.
    Romanian Americans know that as well--and I will not go 
into details, because today's was a private lunch, but the 
president, demonstrating to all Senators of both parties the 
degree of sophistication that they had in terms of companies 
with whom they deal, and how they deal, and what they are 
doing.
    I do have a deep emotional attachment to the idea of the 
complete, total, de facto and de jure and independence of the 
Baltic States. What the chairman was referencing was that I was 
mildly outraged on the Senate floor when one of my colleagues 
referenced the relationship of the Baltic States to Russia in a 
way that absolutely ignored history.
    But I am dismayed, as well as the chairman, as to some of 
the things that the Baltic-American community and the Baltic 
States fail to understand they are going to have to do to get 
my colleagues to arrive at the point that he and I have arrived 
at about Baltic membership.
    The EU, I am told, has already told Estonia that unless 
they can figure out a way to more fully integrate Russian-
speaking minority within the community, they are going to have 
a problem getting into the EU. If the EU, which is usually 
brain dead on matters relating to those kinds of 
sensitivities--and you can tell I am not a diplomat, I am a 
Senator--if they understand that, can you imagine what it would 
be here in the United States?
    So my question is, those of us who are supporters, when we 
say things like the chairman said, are we viewed as interfering 
with sovereignty? Are we viewed as trying to have the heavy 
hand of the United States of America dictate, or are we viewed 
in the way we mean it, that it is very important to understand 
the sensibilities Americans have about matters of that kind 
when we are asking American taxpayers to spend a lot more money 
to integrate a part of the world into the alliance? Most 
Americans are not going to sleep more easily knowing Estonia is 
a member of NATO, or for that matter that a large country like 
Poland is a member of NATO. Maybe they should, but they do not 
think of it that way.
    So could you, a man who has been around on these issues, 
try to explain to me, in layman's terms, why NATO enlargement 
to include the Baltic states is worth it.
    Unless I can go home in southern Delaware, where not a 
single Baltic-American lives, and explain to them why it is 
important--why it is important that their taxes go up to 
enhance their security and meet, in my view, a historical moral 
obligation, unless they can accept that, it is not going to 
happen. It is not going to happen.
    So I just wonder if you could just talk to me a little bit, 
just as if we were in a town meeting. I mean, tell me, how 
would you explain to the people at a town meeting in Portland, 
Oregon, or Wilmington, Delaware, what is the thinking? What is 
going on?
    Please let me say one other thing for the record. I am not 
suggesting there is any gross violation of human rights in any 
of the three countries. I am not suggesting that there is a 
motivation to exclude people. I am suggesting that there is an 
image problem.
    There really is an image problem. That is not very focused 
now, because nothing is being asked, but it will become center 
stage if and when we get to the point that I think we agree the 
chairman would like to see us get to relative to admission of 
the Baltic States, all three, into NATO.
    Just talk to me a little bit, because you are good at this.
    Mr. Grossman. Well, thank you very much, Senator.
    Let me just try to talk to you. We will just leave aside as 
much of the diplospeak as we possibly can.
    I think the answer to your question, are we heavy handed--
the answer is no.
    Senator Biden. Are we perceived as heavy handed?
    Mr. Grossman. No, that's what I mean. Are we perceived as 
heavy handed? I think the answer to that ought to be no. I 
mean, whether people perceive us that way or not, I do not 
know.
    You have, as a United States Senator, it seems to me, an 
absolute right to raise very important issues that are 
important not only to you, Senator Smith in terms of visas, but 
also to your constituents, because those are the questions you 
have to answer in Delaware.
    Senator Biden. We do not stay here unless our constituents 
get responded to.
    Mr. Grossman. Yes, exactly right.
    Senator Biden. We are their hire.
    Mr. Grossman. Right, and that's exactly the point, so I say 
no, I do not think that we ought to be perceived as heavy 
handed. We ought to be perceived, and this--I put us both on 
the same team. We ought to be perceived as doing exactly what 
we all want, which is what, which is to be champions of 
integration of these three countries.
    We ought to be perceived as exactly what we are, which is 
helping Latvia, Lithuania, and Estonia be the best possible 
candidates to walk through the open door, and I think the 
practical answer to your question, Senator, is, Poland, 
Hungary, and the Czech Republic.
    I mean, do you look back now and think that anybody 
perceived us as being heavy handed to try to move forward 
reform efforts in the Czech Republic, or Poland, or Hungary? 
No.
    Senator Biden. Poland basically came and said, would you 
like us to stand on our head? Would you like us to do 
cartwheels? What would you like us to do? I mean, what is it we 
have to do to prove this?
    Mr. Grossman. I think that is the answer to your question. 
One of the more--and again, like you, I do not want to sort of 
give out great diplomatic secrets about private conversations, 
but one of the things that really struck me at the meeting 
between the Polish prime minister and Secretary Albright last 
Friday was the Polish prime minister talking to the Secretary 
about all the things that Poland could do to export security 
outside of Poland, what could we do in this area, what could we 
do in that area, how can we help you, and I think that is what 
we are after.
    The answer to your question is, you ought to have 
standards. You ought to try to keep people to certain 
standards. It is, after all, our alliance. The President has to 
make a decision The Senate has to make a decision, and just 
like you did, you have to vote and discuss these things, and 
you ought to also have a plan, in my view, Senator, is--I know 
this is sort of hard to read--but this is our plan.
    This is my long answer to your question, which is, if we 
can do these things in the economic area and security area, the 
political area, and we can do them with the Baltic States, with 
the Nordics, to the extent possible with Russia, then when the 
time comes, when we have made them the best possible candidates 
and they can walk through that door, just like Poland, the 
Czech Republic, and Hungary, no one is going to remember that 
you were perceived as heavy handed. People are going to 
remember that you set good standards, you had a plan, people 
achieved them, and you got the right result.
    Senator Biden. For the record, if any group of nations from 
a moral or security standpoint warrants being in NATO, I cannot 
think of any three nations that meet these criteria more than 
the Balts, the Baltic nations, so I am looking forward to 
working with the leadership of each of those countries, and 
they have been very forthcoming, by the way.
    Because I think the day, God willing, and as they say in 
southern Delaware, and the crick not rising, the day is going 
to come sooner than later, I hope, when we are voting on it 
before the U.S. Senate.
    At any rate, I thank you. My time is up. I thank the 
chairman.
    Senator Smith. Mr. Secretary, to what degree is the tension 
between the Baltic States and Russia a product of one versus 
the other, and does Russia understand that maintaining that 
tension is a way to frustrate NATO membership for the Baltics? 
How do we avoid holding the Baltics responsible for problems 
emanating from Moscow?
    Mr. Grossman. Well, I think our objective, Senator, as I 
said, is to try to create as much as we can a kind of win-win 
philosophy out there, which is, if we can do some business with 
Russia, Northwest Russia, for example, on cleaning up nuclear 
waste, work on nuclear safety, and do that with the Baltic 
States, with the Nordic States, that is a plus, and our 
objective over time is to make this, as I say, a positive for 
everybody.
    Now, when things are hard, though--I do not want to be 
misunderstood. For example, when the Russians, for example, 
talk about economic pressure on Latvia, we want to be real 
clear, as we were at the time and would be again, that that is 
not acceptable and, worse, we think it is counterproductive. It 
does not work.
    So our dialog with Russia on this ought to be of two parts, 
which is to say, there are a lot of positives out there, and 
things you can do and things we can do together that ought to 
be good for everybody, but there is a line--economic sanctions, 
or economic pressure--that you should not cross, and we have 
not been slow to say that, and we have not been afraid to say 
that.
    Senator Smith. Is there blame on both sides?
    Mr. Grossman. Well, I think blame is--I do no know about 
the blame game. One of the things that we have said all along, 
and I have said in my testimony, is in countries like Latvia, 
for example, Latvia has to work hard to deal with its Russian-
speaking minority, and that is why I made such a point in my 
testimony of drawing attention to the OSCE standards.
    You had Max Van der Stoel, their representative go and give 
a list of the kinds of things that needed to be done, and I was 
really lucky. I happened to be representing the United States 
at the Council of Baltic Sea States on 22 June when the Latvian 
parliament voted in favor of the two most important of these 
changes, and I had the good fortune to talk about it there, 
congratulate the Latvian foreign minister--Mr. Primakov was 
there as well--and we had a chance to really talk about these 
things.
    The Estonians, for example, of the 30 recommendations that 
the OSCE have given, they have completed 29 of them, and the 
thirtieth one is due for a vote by their parliament in 
September. It is one of the reasons, as I said in my testimony, 
that we are supporting this Riga Law School, because people 
ought to be able to go, people of all kinds of languages and 
backgrounds ought to go to law school and be able to defend 
themselves and protect their legal rights.
    So I sort of pass on that, but what we want to do is 
encourage people, as Senator Biden said, to live up to a 
certain set of standards.
    Senator Biden. Can I ask one question, Mr. Chairman?
    Senator Smith. Yes.
    Senator Biden. And you can pass on this question if you 
like, but the next panel cannot. They can, but I hope they will 
not, and it might not be able to be answered with any degree of 
certainty.
    In your view, if in each of the Baltic States, their 
leadership were told tomorrow they could join right now either 
the EU or NATO, but only one, which would they choose, in your 
view--Latvia, Lithuania, Estonia. What would you guess?
    If you do not have a view, or you would rather not express 
it----
    Mr. Grossman. I do not have any idea. I mean, I pass. I 
have not thought about that one, and I do not know how to 
answer the question.
    Senator Biden. The reason I ask the question, I hope, is 
obvious. One of the things that is said, including today in the 
speech by the President of Romania on the floor of the U.S. 
Congress in a joint session, and was also the thing that was 
said to me in my visits to Poland, the Czech Republic, Hungary, 
and Slovenia and a number of other places I have been recently, 
was that this is a heck of a lot less about security and 
feeling any direct threat from Russia or any former Warsaw Pact 
member, than it is about being integrated into the West, and 
NATO is a guaranteed anchor.
    Once in NATO, you are in the West. You have all the 
benefits that flow from that, including an economic advantage 
that grows out of a perceived sense of being not vulnerable to 
outside influence. So, I just wondered how, in your view, it 
might be viewed by the Baltic countries, or if it may be viewed 
differently in each country. I am not lumping them all 
together.
    Mr. Grossman. I think I would pass on your bigger question, 
but I think it is an important point that you make, which is to 
say, there is this question that integrating with the West is 
the big security, capital S, if you will, and I think that the 
days are long gone when you could kind of worry about your 
military security on Monday and Tuesday and democracy on 
Wednesday and Thursday, and your economy on Friday and 
Saturday.
    Things are simultaneous today, and that is why, it seems to 
me, people want to be a part of what we are doing.
    You say that they want to integrate with the West. I think 
the reason that people want to integrate is values and 
security, and one of the reasons we have chosen to do some 
political things, economic things, and some security things is 
that it is the whole package.
    When we talk about champion of integration, that is really 
what we mean. It seems to me that the more integrated you are, 
the more secure you are.
    Senator Biden. Thank you very much, Mr. Chairman.
    Senator Smith. I share your observation, Senator Biden. As 
we have dealt with these countries of the former Eastern 
Europe, the former Soviet Union, their first desire is for 
security and then prosperity, and I think that is a human 
motive that all of us can understand. Being rich does not make 
you safe. You need to be safe. I have been amazed at that.
    Senator Biden. One of the ironies is, Mr. Chairman, and I 
apologize for our dialog here, but one of the ironies, it seems 
to me, for the witnesses, is that the more any one of the 
countries seeking admission to NATO--from the Balkans to the 
Baltics--talks about the political and economic security that 
flows from being a member of NATO, the more fodder it gives to 
those who do not want to see NATO expanded to say that we are 
turning this from a military allinace into a political 
institution.
    It has always been a political institution, but it is hard 
to get that point through. That is why I just wondered if you 
had a sense of what the driving motivation was, if it could be 
identified in any one of those countries, just for my own 
insight.
    I thank you very much. Thank you, Mr. Chairman.
    Senator Smith. Mr. Secretary, thank you for answering our 
questions. We are grateful for your contribution to our desire 
to bring the Baltic countries into the western sphere.
    Mr. Grossman. Thank you very much. I appreciate it.
    Senator Smith. We will now call up our second panel, Dr. 
Krickus, Dr. Plakans, and Dr. Raun.
    Senator Smith. Gentlemen, we welcome you. We are going to 
include into the record--I request unanimous consent, myself 
and my colleague--testimony from the Lithuanian-American 
community. The statement of the Central and East European 
Coalition, and the Joint Baltic-American National Committee. We 
are pleased to receive your comments and they will be part of 
the record.
    [The material referred to appears in the appendix.]
    Senator Smith. Let us begin, Dr. Krickus, with you. 
Welcome.

 STATEMENT OF DR. RICHARD J. KRICKUS, DEPARTMENT OF POLITICAL 
   SCIENCE, MARY WASHINGTON COLLEGE, FREDERICKSBURG, VIRGINIA

    Dr. Krickus. Mr. Chairman and members of the committee, I 
welcome the opportunity to share with you my observations on 
Lithuania and American foreign policy priorities.
    For several years the administration and Members of 
Congress have said that the door to NATO is open to the Baltic 
democracies. The time has come to live up to that promise and 
accelerate it by extending membership to Lithuania.
    In much the same fashion that Estonia has earned the right 
to be the first of the three Baltic democracies to enter the 
EU, Lithuania has earned the right to enter NATO first. Through 
this step-by-step process, NATO membership for Estonia and 
Latvia will be facilitated.
    Providing membership to the Baltic democracies is 
consistent with two major American foreign policy objectives in 
post cold war Europe. The first is safe-guarding the zone of 
democracy which has appeared with the collapse of the Soviet 
empire. This is one of NATO's fundamental missions. An 
enlargement advances that goal.
    Second, while NATO moves eastward, Russia must be 
integrated into the Euro-Atlantic community.
    Opponents of the Baltic democracies in NATO claim they are 
not a vital U.S. interest and cannot make a military 
contribution to the alliance. To include them in NATO is to 
needlessly provoke Russia. There is no threat that justifies 
their membership at this time. Should one materialize, then we 
can waive them in.
    The above arguments are made by serious people, and they 
cannot be blithely ignored, but all of them have their roots in 
fears and ideas driven by the cold war, not today's world.
    Safeguarding democracy in Europe and empowering people who 
share our values is a vital interest. The West has the capacity 
to field many divisions armed with the most advanced weapons, 
but we do not know how to establish stable democracies. The 
most extensive military contributions that the Baltic countries 
can conceivably make to NATO is vastly less important than the 
advantages that flow from having viable democracies in the 
heartland of Europe.
    The most serious security problem that Russia faces is 
economic turmoil at home, which is linked to the failure of the 
economic oligarchs and the rich to pay their taxes.
    Russia's principal military threat is in the Caucasus, in 
the territories of the former Soviet Central Asian States, and 
in the long-term, China. It is in Russia's vital interest, 
then, to have good relations with an alliance of stable 
democracies on its European flank.
    Instability and the resurrection of antidemocratic 
movements in the heartland of Europe could have a pernicious 
impact on the ability of Germany and Russia to develop a 
relationship that is beneficial and nonthreatening to both 
States. Russian defense analysts are not happy with NATO 
enlargement, but they do not believe NATO represents a military 
threat to them. The disintegration of their armed forces and 
weapons systems have forced them to dwell upon real, not 
imagined threat to their security.
    For the Russian people, it is economic destitution that 
preoccupies them. They do not care about the Balts getting into 
NATO.
    Finally, the greatest threat to stability in Europe today 
is the upheaval promulgated by the transition from communism to 
an open society. Coping with this threat is NATO's most 
challenging mission. The prospects that neo-Soviets and 
ultranationalists will exploit Russia's daunting problems to 
gain power is a threat to all of Russia's neighbors. That is 
why the Baltic countries want to find a safe harbor in NATO.
    Their major worry is not a strike across their borders, but 
the turmoil that is wreaking havoc to their east. Today, 
President Yeltsin is talking about a coups d'etat, and his 
opponents are threatening to sweep his prime minister from 
power and to replace the Government with an emergency 
committee. Does that constitute a sufficient threat to honor 
our pledge and bring the Balts into the alliance? I think it 
does.
    Lithuania, as a recent Department of Defense report 
indicates, is the best qualified of the Baltic countries to 
enter NATO. It has the largest number of troops under arms, and 
it has made the largest contribution of resources to its armed 
forces. For example, in 2 years Lithuania intends to spend 2 
percent of its GDP on defense. By contrast, Germany today 
spends a lesser percentage of its GDP on its armed forces.
    All of Lithuania's major political parties and a plurality 
of its people want to join NATO. As Poland's neighbor, 
Lithuania is contiguous to a State soon to be a member of the 
alliance. Lithuania has moved further toward democratization 
than any of the 15 former Soviet republics. It has a stable 
party system. It has conducted several fair and open 
legislative and Presidential elections. It has a liberal 
citizenship law and, as Freedom House has indicated, it has the 
freest press of all the former communist lands of Europe.
    The second major foreign policy objective in Europe is to 
integrate Russia into the Europe-Atlantic community. This is 
not likely to happen in one great leap, but through a series of 
small steps. I have just returned from a visit to Moscow and to 
Kaliningrad, and I would agree with many Russian and western 
observers that the exclave may serve as a test case for 
Russian-western cooperation. There has been a dramatic decline 
in the number of troops that are stationed in the Oblast. U.S. 
forces say they constitute about 23,000, while the Poles say 
40,000 troops remain in Kaliningrad.
    Kaliningrad's neighbors may argue that the number is too 
high, but they all concede that the downsizing is good news and 
are less concerned about the militarization issue than even a 
year ago.
    Russian defense analysts claim that economic pressures 
alone are not responsible for the shrinkage. There is a second 
reason for it. They do not believe that the exclave is 
defensible. Note that they are making this claim even prior to 
Poland's becoming an active member of NATO. Moving NATO 
eastward has no bearing on Kaliningrad's security, nor Russia, 
for that matter.
    Some Russian commentators may continue to threaten to 
deploy nukes in Kaliningrad, but no serious security analyst in 
Moscow is thinking in these terms today.
    Meanwhile, Russian fears that western militarization and 
economic development proposals are meant to deny Russia control 
of the Oblast have declined as well. No Government in the 
region, German, Lithuanian, or Polish, challenges Russian 
control of Kaliningrad. EU experts I spoke to in Kaliningrad, 
however, fear the Oblast could become a black hole in the 
Baltic Sea region and, because of a deteriorating economic and 
social situation there, threaten stability in the Baltic Sea.
    They are recommending the EU go beyond the provision of 
technical assistance and provide the Oblast with capital 
development funds as well. It is my understanding that the U.S. 
Government does not intend to play a major role in economic 
development programs and other initiatives designed to 
stabilize the situation in Kaliningrad, but it can play an 
important supportive role.
    Through cooperative Russian-western programs in 
Kaliningrad, we may determine how joint efforts can help the 
Russian Federal resolve its economic, social, and ecological 
problems and build a free market economy. Of course, at some 
future time, when hard security questions reemerge, perhaps 
with the development of U.S. infrastructure installations in 
Poland, or as a result of reassessment of CFE, the American 
role in resolving the Kaliningrad question may take on greater 
and different dimensions.
    Through its quiet diplomacy and the investment of its 
entrepreneurs, Lithuania is contributing to the development of 
Kaliningrad and the recent visit of Russian foreign minister 
Primakov to Lithuania testifies to the warm relations that 
Vilnius and Moscow enjoy. As President Adamkus has recently 
indicated, he sees no problem that the constructive relations 
with Russia will be jeopardized by Lithuania's bid for NATO 
membership. Remember, in Article II of the 1990 treaty between 
Lithuania and Soviet Russia, both sides agreed to the 
following, quote, the high contracting parties recognize each 
other's right to independently realize their sovereignty in the 
area of defense and security in ways they find acceptable, 
unquote.
    Finally, from the vantage point of the United States, the 
following should be kept in mind: By including the Baltic 
democracies in NATO and striving to address Moscow's legitimate 
security concerns, the West can safeguard democracy in the 
heart of Europe. This objective is in the interests of the 
West, the former Soviet republics, and a democratic Russia as 
well.
    Thank you.
    [The prepared statement of Dr. Krickus follows:]
                Prepared Statement of Richard J. Krickus
    Mr. Chairman and members of the committee, I welcome the 
opportunity to share with you my observations on Lithuania and U.S. 
foreign policy priorities.
    For several years the administration and members of Congress have 
said that the door to NATO is open to the Baltic democracies. The time 
has come to live up to that promise and accelerate it by extending 
membership to Lithuania.
    In much the same fashion that Estonia has earned the right to be 
the first of the three Baltic democracies to enter the EU, Lithuania 
has earned the right to enter NATO first. Through this step-by-step 
process, NATO membership for Estonia and Latvia will be facilitated.
    To provide justification for this initiative a little historical 
background is required.
    Estonia and Latvia were the first of the 15 Soviet Republic to form 
grass-roots movements which Mikhail Gorbachev believed would provide 
momentum for Perestroika.
    Lithuania followed their lead and in March 1990 restored the 
Lithuanian state which had been forcefully annexed into the Soviet 
Union in 1940.
    Recognizing that the Lithuanian rebellion represented a threat to 
the USSR, Gorbachev sought to crush it. On January 13, 1991 a massacre 
took place at a TV tower in Vilnius but through peaceful resistance the 
Lithuanian people prevailed and saved their independent government.
    What became known as Bloody Sunday set into motion events which led 
to the August 1991 coup and the collapse of the Soviet Empire in 
December of that year.
    No longer deeming Gorbachev their leader, the democrats embraced 
Boris Yeltsin. Gorbachev then agreed to a new union treaty which when 
implemented would drain power from the hard-liners in Moscow and pave 
the way for Baltic secession from the union.
    It was this prospect which led to the neo-Stalinist Putsch of 
August 1991.
    But events in Lithuania revitalized a badly demoralized Russian 
democratic movement and provided the Yeltsimtes with lessons to abort 
the August Putsch.
    The commander of the KGB Alpha unit which was responsible for 
Bloody Sunday later explained why his men did not attack the Russian 
White House in August. An attack which certainty would have crushed the 
democratic activists who gathered there.
    ``Vilnius was the last straw and our patience ran out. ... 
Honestly, had it not been for Vilnius we would not have refused to 
storm the White House.''
    Democrats everywhere, Americans, Europeans and Russian owe a debt 
of gratitude to the Baltic peoples for helping end the Cold War.
    During that period about 100,000 Americans were killed in combat 
and three times that number were wounded in battle at a cost of 
billions of dollars to the national treasury.
    This awesome sacrifice has provided millions of Europeans with the 
prospect of living in open societies and to enjoy the fruits of a free 
enterprise economy. We must not deny them that prospect in the 
aftermath of the Cold War less those sacrifices be made in vain.
    Providing NATO membership to the Baltic democracies is consistent 
with two major American foreign policy objectives in post-Cold War 
Europe.
    The first is safeguarding the zone of democracy which has appeared 
with the collapse of the Soviet Empire. This is one of NATO's 
fundamental missions and enlargement advances that goal.
    Second, while NATO moves eastward, Russia must be integrated into 
the Euro-Atlantic community.
    Opponents of including the Baltic democracies in NATO claim:

  <bullet> They are not a vital U.S. interest and cannot make a 
        military contribution to the alliance.
  <bullet> To include them in NATO is to needlessly provoke Russia.
  <bullet> There is no threat that justifies their membership at this 
        time. Should one materialize, then they can be waved in.

    The above arguments are made by serious people and they cannot be 
blithely ignored but all of them have their roots in fears and ideas 
driven by the Cold War era, not today's world.
    Safeguarding democracy in Europe and empowering people who share 
our values is a vital interest. The West has the capacity to field many 
divisions armed with the most advanced weapons but we do not know how 
to establish stable democracies.
    The most extensive military contribution that the Baltic countries 
can conceivably make to NATO is vastly less important than the 
advantages that flow from having viable democracies in the heartland of 
Europe.
    The most serious security problem that Russia faces is economic 
turmoil at home which is linked to the failure of the economic 
oligarchs and rich to pay their taxes.
    Russia's principle military threat is in the Caucasus, in the 
territories of the former Soviet Central Asian states, and in the long 
term China.
    It is in Russia's vital interest then to have good relations with 
an alliance of stable democracies on its European flank.
    Instability and the resurrection of anti-democratic movements in 
the heartland of Europe could have a pernicious impact on the ability 
of Germany and Russia to develop a relationship that is beneficial and 
non-threatening to both states.
    Russian defense analysts are not happy with NATO enlargement but 
they do not believe NATO represents a military threat to them. The 
disintegration in their armed forces and weapons systems have forced 
them to dwell upon real not imagined threats to their security.
    For the Russian people it is economic destitution that preoccupies 
them, they don't care about the Baits getting into NATO.
    Finally, the greatest threat to stability in Europe today is the 
upheaval promulgated by the transition from communism to an open 
society. Coping with this threat is NATO's most challenging mission.
    The prospects that neo-Soviets and ultra-nationalists will exploit 
Russia's daunting problems to regain power is a threat to all of 
Russia's neighbors. That is why the Baltic countries want to find a 
safe harbor in NATO.
    Their major worry is not a strike across their borders but the 
turmoil that is wreaking havoc to their east.
    Today President Yeltsin is talking about a coup d'etat and his 
opponents are threatening to sweep his Prime Minister from power and to 
replace the government with an emergency committee.
    Does that constitute a sufficient threat to honor our pledge and 
bring the Balts into the alliance?
    Lithuania, as a recent Department of Defense report indicates, is 
the best qualified of the three Baltic countries to enter NATO.
    It has the largest number of troops under arms and it has made the 
largest contribution of resources to its armed forces. For example, in 
two years Lithuania intends to spend 2% of its GDP on defense. By 
contrast, Germany today spends a lesser percentage of its GDP on its 
armed forces.
    All of Lithuania's major political parties and a plurality of its 
people want to join NATO. As Poland's neighbor, Lithuania is contiguous 
to a state soon to be a member of the alliance.
    Lithuania has moved further toward democratization than any of the 
15 former Soviet Republics. It has a stable party system, it has 
conducted several fair and open legislative and presidential elections, 
it has a liberal citizenship law, and as Freedom House has indicated it 
has the freest press of all the former communist lands of Europe.
    The second major foreign policy objective in Europe is to integrate 
Russia into the Euro-Atlantic community.
    This is not likely to happen in one great leap but through a series 
of small steps.
    I have just returned from a visit to Moscow and Kaliningrad and I 
would agree with many Russian and Western observers that the exclave 
may serve as a test case for Russian-Western cooperation.
    There has been a dramatic decline in the number of troops that are 
stationed in the Oblast. U.S. sources say they constitute about 23,000 
while the Poles say 40,000 troops remain in Kaliningrad.
    Kaliningrad's neighbors may argue that the number is too high but 
they all concede that the downsizing is good news and are less 
concerned about the militarization issue there than even a year ago.
    Russian defense analysts claim that economic pressures alone are 
not responsible for the shrinkage; there is a second reason for it. 
They do not believe that the exclave is defensible.
    Note that they are making this claim even prior to Poland's 
becoming an active member of NATO. Moving NATO eastward has no real 
bearing on Kaliningrad's security nor Russia for that matter.
    Some Russian commentators may continue to threaten to deploy nukes 
in Kalmingrad but no serious security analyst in Moscow is thinking in 
these terms today.
    Meanwhile, Russian fears that Western demilitarization and economic 
development proposals are meant to deny Russian control of the Oblast 
have declined as well.
    No government in the region, German, Lithuanian or Polish 
challenges Russian control of Kaliningrad.
    EU experts that I spoke to in Kaliningrad, however, fear the Oblast 
could become a black hole in the Baltic Sea region, and because of a 
deteriorating economic and social situation threaten stability there.
    They are recommending the EU go beyond the provision of technical 
assistance (through their TACIS Program) and provide the Oblast with 
capital development funds as well.
    It is my understanding that the U.S. government does not intend to 
play a major role in economic development programs and other 
initiatives designed to stabilize the situation in Kaliningrad but it 
can play an important supportive role.
    Through cooperative Russian-Western programs in Kaliningrad, we may 
determine how joint efforts can help the Russian Federation resolve its 
economic, social and ecological problems and build a free market 
economy.
    Of course, at some future time when hard security questions 
reemerge--perhaps with the development of NATO infrastructure 
installations in Poland or as a result of reassessment of CFB--the 
American role in resolving the Kaliningrad Question may take on greater 
and different dimensions.
    Through its quiet diplomacy and the investment of its 
entrepreneurs, Lithuania is contributing to the development of 
Kaliningrad. And the recent visit of Russian Foreign Minister Gennadi 
Priinakov to Lithuania testifies to the warm relations that Vilnius and 
Moscow enjoy.
    As President Valdas Adainkus has recently indicated, he sees no 
problem that constructive relations with Russia will be jeopardized by 
Lithuania's bid for NATO membership.
    Remember in Article 2 of the 1991 treaty between Lithuania and 
Soviet Russia both sides agreed to the following:
    ``The High Contracting Parties recognize each other's right to 
independently realize their sovereignty in the area of defense and 
security in ways they find acceptable...''
    From the vantage-point of the United States, the following should 
be kept in mind. By including the Baltic democracies in NATO and 
striving to address Moscow's legitimate security concerns, the West can 
safeguard democracy in the heart of Europe. This objective is in the 
interest of the West, the former Soviet republics and a democratic 
Russia as well.

    Senator Smith. Thank you very much, doctor. Dr. Plakans.

 STATEMENT OF DR. ANDREJS PLAKANS, DEPARTMENT OF HISTORY, IOWA 
                   STATE UNIVERSITY, AMES, IA

    Dr. Plakans. Thank you, Mr. Chairman. I have a longer 
statement that is submitted for the record. The shorter 
statement is basically a precis of that and I am going to be 
talking about Latvia, and I will be addressing the question of 
what has been done in the last 7 years since 1991 and what 
remains to be done and, given the time shortage, I am going to 
be talking more in my oral statement about the unfinished 
business of Latvia.
    As I see it, there are six areas in which the Latvian State 
has unfinished business. The first of these is the large 
proportion of the stateless inhabitants of Latvia, which 
constitute at this moment about 27.1 percent of the total 
population. This is of a population of 2.47 million.
    This situation, of course, as is known, grew out of the 
Soviet policy that reduced the indigenous Latvian population to 
about 52 percent of the total in the 1989 census and reduced 
Latvians to a minority status in seven out of the eight largest 
cities by that same date. This is a policy which most Latvians 
in Latvia perceive as having been deliberate russification of 
their country.
    The fear of national extinction has been part of Latvian 
thinking for a very long time, and it now informs the 
citizenship debate within Latvia. This fear, however, directly 
conflicts with another desired goal, the wish to join pan-
European institutions and other international institutions. 
This requires careful negotiation for the expectations of all 
parties, the European institutions, the U.S., Latvians, and the 
stateless inhabitants of Latvia, to be reconciled.
    Unfinished business number 2 in my view involves the 
question of a strong central Government. By contrast with the 
stated goal of creating a vital private sector, the national 
Government in Latvia remains central to virtually every aspect 
of Latvian affairs.
    There are historical trends at work here. In the 1920's, 
immediately after the acquisition of the sfirst independence, 
there was only one institution, the new national Government, 
that could mobilize the population and resources for the 
necessary tasks of State-building.
    The Soviet period, of course, enhanced the role of the 
central Government and central planning beyond anything the 
pre-1940 republic contained. This very strong and continuing 
sense of dependence on the central Government in Latvia 
explains, I think, in large part why the cultivation of private 
initiative, the creation and maintenance of NGO's, and other 
appurtenances of a healthy private sector has been so 
problematic in Latvia and continues, in my view, to be 
problematic.
    The third area of unfinished business involves demography, 
demographic indicators. In every year since 1991, the total 
population of the country, of Latvia, has fallen by a few 
percentage points, thus diminishing from 2.6 million in 1991 to 
2.4 million in 1997, due in large part Sto the immigration or 
re-migration of the Slavic language population.
    Moreover, during every year since 1993, the proportion of 
the older, past-working-age population has increased relative 
to the younger, before-working-age population. The fertility 
rate in the country has declined since 1991 in every age 
category. The number of abortions has increased from 128 per 
100 births in 1991 to 148 in 1996.
    Senator Biden. Excuse me, doctor, 128 versus 100?
    Dr. Plakans. 128 abortions per every 100 births, live and 
still births, to 148 now.
    Senator Biden. So almost 50 percent more fetuses are 
aborted than taken to term.
    Dr. Plakans. The life expectancy at birth for both men, 
which is now 63.9 years in 1996, and women, 75.6 in 1996, has 
declined since 1991 at a somewhat more rapid rate than in other 
post communist societies.
    In short, the Latvian population is not replacing itself, 
and its slowly diminishing numbers are aging. In absolute 
numbers, there were more Latvians in Latvia in 1935, 1.46 
million, than there were in 1996, 1.37 million, which is a drop 
of about 6.1 percent.
    These demographic characteristics are a source of no small 
worry to the Latvian Government, which has to think in terms of 
tax revenues, the labor supply, army recruitment, and the like, 
and they certainly feed the fear of national extinction in the 
general population.
    A fourth area of unfinished business concerns the law-based 
State. An immense amount of rapid practical thinking was needed 
in the period from 1990 to 1991, when separation from the 
U.S.S.R. Became a possibility, about how to transform Latvia 
from a Soviet republic in which law was frequently overridden 
by the Communist Party, to a State in which law was paramount 
and equal for all.
    The process of revising and adapting the 1922 constitution 
has been going on since 1991. The Latvians actually renewed the 
1922 constitution rather than writing a new one, and this 
process of revision and adaptation continues at this writing.
    In fact, the difficulties encountered in all of this have 
led President Guntis Ulmanis to reflect recently that perhaps 
an entirely new constitution is needed, and this thought 
appears to be supported by about 52 percent of the population, 
according to latest opinion polls.
    Legal reform has involved primarily the extrication of the 
country's legal system from the now-defunct Soviet system, with 
one additional complication. Latvia's desire to become 
integrated with western, especially Western European, 
institutions, has meant that basic laws, as well as 
parliamentary legislation, has had to be coordinated with 
western codes and legal ideas, especially with such relatively 
new and somewhat mysterious matters as human rights.
    While the trajectory toward a law-based State is clearly 
present in Latvia, the time needed for this task has been much 
longer than anyone had expected.
    The fifth area of unfinished business involves political 
democratization. During the past 6 years there have been two 
peaceful parliamentary elections, 1993 and 1995, and a third 
will take place in October of this year. In both 1993 and 1995 
voter participation was substantially above the 65 percent 
mark.
    There have been two rounds of municipal local elections in 
1994 and 1997 and a single president head of State who was 
elected by the parliament in 1993 and reelected in 1995. Five 
prime ministers have headed cabinets during these years, and in 
each parliamentary election a large number of political 
parties, altogether 24 parties in 1993 and 29 parties in 1995, 
have contended for supremacy.
    Given the fact that Latvia had not had a direct experience 
with democratic politics since 1934, when the president at that 
moment, Karlis Ulmanis, established his popular authoritarian 
regime, this record, judged by such standards as the acceptance 
of political defeat, peaceful surrender of power, and continued 
high levels of voter participation, has to be judged as fairly 
good, and the prospects for political continuity high.
    At the same time, commentators both in Latvia and outside 
note three things about the current political climate, 
especially as it relates to questions of democratization.
    First, the competitive, possibly excessively competitive, 
multiparty system and proportional representation have produced 
a belief, widespread in the population, that most politicians 
and parties seek power in order to enhance personal prestige 
and wealth rather than the common good. This mistrust by the 
electorate of its political leaders places under a cloud the 
unquestionable success of democratic procedures.
    Third, observers also continue to note that a very high 
proportion of Latvia's resident population continues to be 
excluded from political participation by citizenship laws, so 
that while Latvian politics at this moment represents all 
shades of opinion of Latvian opinion, it does not represent all 
shades of the total population of Latvia.
    Finally, unfinished business in the economic realm. The 
annual GDP statistics in Latvia show that the earlier dramatic 
fall of the GDP which began in 1990 ceased in 1993, and that 
since that time levels have risen by about 5 to 6 percent with 
each year, at least since 1995.
    Latvian structural adjustment to the withdrawal from the 
planned economy of the Soviet Union, therefore, is over, and 
macroeconomic trends seem all to be pointing upward, though on 
a much less steep incline than Estonia's.
    Nonetheless, the past 3 or 4 years have not brought respite 
from the continuing problems that economic transition did 
produce. A current, though somewhat questionable, statistic 
suggests that some 75 to 80 percent of the population is 
managing to live on incomes below the official minimum income 
for survival.
    Most farmland, for example, has been privatized, creating 
some 50,000 or more family farms, but a very high proportion of 
these, perhaps most, are likely to fail because of lack of 
resources. The numbers of the very rich and the very poor have 
grown at a much faster pace than the number of middle income 
individuals and families, demonstrating that the creation of a 
large middle class as measured by income will continue to be a 
very slow process. Though economic relations with Western 
Europe continue to develop, there is still a very great 
dependence on the Russian economy, especially for fuel 
supplies.
    Economically, the transition has not yet carried Latvia to 
a point of unfeigned self-confidence, but the trajectory is 
certainly in that direction.
    Those are six areas in which there is unfinished business 
in my view, and with that I end my statement.
    [The prepared statement of Dr. Plakans follows:]
                 Prepared Statement of Andrejs Plakans
    During 1998 the Baltic states of Estonia, Latvia, and Lithuania 
will have marked their eightieth anniversaries as independent 
countries, and their seventh year as post-Soviet states. Which of these 
facts is more important for understanding the past seven years depends 
upon one's vantage point. From the external viewpoint, it is their 
post-Soviet status that seems more significant, because placing these 
countries in the ``post-Soviet'' category allows for a more inclusive 
and comparative analysis. From the Baltic standpoint, however, the 
longer historical context is also quite significant, because the Baits 
want to acknowledge the national pasts that for fifty years were 
derided as evil and irrelevant (the communist period being portrayed by 
the Party as a higher stage of history). It is the half-century-long 
Soviet rule that is now portrayed as a period of deformation, during 
which the management of national development was removed from the hands 
of the governments in Tallin, Riga, and Vilnius and placed in the hands 
of Moscow. My short survey of the Baltic will employ these two themes--
past and present--in interaction, and I will concentrate on Latvia as 
my case study. Though it is tempting to dwell on successes--the 
negotiated removal of the Soviet/Russian army, a positive GDP in the 
past three years, unremarkable political turnovers after national 
elections, participation in European and international institutions--I 
will be concerned primarily with the continuing unresolved problems of 
the post-1991 period. Many of these problems echo and in some ways are 
continuations of problems of earlier periods of history, although now 
the Latvian state has to find solutions appropriate to the 
international climate in which its second independence period was born.
    Let me begin with the problem that recently has attracted more 
attention than others: the large number of inhabitants of Latvia--some 
27.1% of a total population of 2.47 million--who are not citizens. This 
now is judged by many to be the most serious unresolved issue of the 
post-1991 years. The situation is rooted in the Soviet period, and is 
really a continuing problem only in Estonia and Latvia. In the Latvian 
case, with full knowledge of the inadequate supply of labor in Latvia, 
Moscow planners in the 1950s launched grandiose industrialization plans 
for the country, which included massive labor recruitment from the 
Slavic area of the Soviet Union. This policy--maintained over the next 
three decades--reduced the indigenous Latvian population to about 52% 
of the total (1989 census), and reduced Latvians to minority status in 
seven out of the eight largest cities. The policy was recognized as 
inimical to national survival even by nationally-minded Latvian 
communists in the late 1950's, and, as a result, in 1959-60 some 1,500 
party members suspected of ``bourgeois nationalism'' were purged by 
Khruschev from their jobs and party memberships. To many Latvians then, 
and particularly now when national history is coming to be better know, 
this was an example of deliberate ``russification'' of the Latvian 
population, analogous to the Czarist russification policies of the 
1885-1914 period. Whether statistically well-grounded or not, the fear 
of national extinction has been part of Latvian thinking for a very 
long time, and it now informs the citizenship debate within Latvia. 
Resistance to what in the immediate post-1991 period was called the 
``zero-option'' (immediate citizenship to all residents, as implemented 
in Lithuania) continues to be strong in far larger circles than just 
the political parties of the right. Unfortunately, in this case 
historical memory collides directly with another desired goal--the wish 
to join pan-European institutions--and this conflict will require 
careful negotiation for the expectation of all parties (European 
institutions, Latvians, the stateless inhabitants of Latvia) to be 
reconciled. My point is that the concerns of all these participants are 
very real, and that Latvians have to become convinced that the 
creation, for example, of a two-language state (as some Russian 
inhabitants of Latvia want); or the rapid relaxation of citizenship 
requirements will not result in their gradual peripheralization in a 
state that bear their name. They are not convinced of this at the 
present.
    A second unresolved problem of the past seven years has been the 
role of the government in the country's affairs; or, put inversely, the 
expansion and growth of the private sectors of society. In statistical 
terms (government expenditures as proportion of GDP, proportion of 
incomes deriving from the national budget), during the past three years 
there has been a small but noticeable shift toward private sector 
activity, but, psychologically, the national government remains central 
to virtually every aspect of Latvian affairs. The flowering of the free 
market and of the private sector that was to come with the 
disappearance of the centrally planned society and of the totalitarian 
Communist Party has not been as rapid nor as thorough as one would have 
liked. There are historical trends at work here. From 1918 onward, 
Latvian political culture and political thinking countenanced a very 
powerful, activist, and intrusive central government. The explanation 
for this is simple. In the 1920s there was only one institution--the 
new national government--that could mobilize the population and 
resources for the necessary tasks of state-building, and these impulses 
(a Latvian version of French economic dirigisme) were far from spent in 
the 1930s, when Karlis Ulmanis in 1934 suspended the parliament and 
political parties and created his six-year authoritarian presidential 
rule. The Soviet period, of course, enhanced the role of the central 
government and central planning beyond anything the pre-1940 republic 
contained, and dependency in the Soviet-period was deliberately 
cultivated. In any event, dependency of the population on the central 
government is deeply rooted in the Latvian political world, which 
explains in part why the cultivation of private initiative, NGOs, and 
the other appurtenances of a healthy private sector has been so 
problematic. There continues to be the strongly held belief that 
success in private ventures, and regional and local governments, is 
incomplete unless it leads the successful businessman or political 
leader to a position in the national government. In contrast to the 
United States, in which a relatively weak national government was a 
fact of life for the first century of national existence, Latvia began 
its national existence with an overwhelmingly strong national 
government, and this tradition continues to be very difficult to 
reverse.
    A third problem--really a cluster of unresolved lesser problems--
has to do with what Latvians believe to be highly unfavorable 
demographic indicators. To begin with, in every year since 1991 the 
total population of the country has fallen by few percentage points 
(diminishing from 266 million in 1991, to 2.47 million in 1991), in 
large part due to the emigration or remigration of the Slavic-language 
population. Moreover, during every year since 1993 the proportion of 
the older past-working-age population has increased relative to the 
younger before-working-age population, or, in other words, the 
population is aging. The fertility rate has declined since 1991 in 
every age category. The proportion of extra-marital births has 
increased steadily from 21.5% of all live births in 1991 to 36.2% in 
1997; and the number of abortions has increased from 128 per 100 live 
and stillbirths in 1991 to 148 in 1996. The divorce rate is very high 
(in 1996 there were 9634 marriages, but 6051 divorces), the average 
number of children per married couple appears to be declining, and life 
expectancy at birth for both men (63.9 in 1996) and women (75.6 in 
1996) has declined since 1991 at a slightly somewhat more rapid rate 
than in other post-Communist societies. Although the proportion of 
ethnic Latvians in the total population has increased by a few 
percentage points since 1991 (52.0% in 1989; 55.3% in 1997), the 
Latvian population is not replacing itself In absolute numbers, there 
were more Latvians in Latvia in 1935 (1.46 million) than there were in 
1996 (1.37 million) a drop of 6.1%
    These demographic characteristics are a source of no small worry to 
the Latvian government, which has to think in terms of tax revenues, 
the labor supply, army recruitment, and the like; and they certainly 
feed the fear of national extinction in the general population. Still, 
reviewing Latvian demographic development in the longterm, it has to be 
observed that public disquiet over unfavorable demographic trends has 
been almost a constant theme. The fact is that the Latvian population 
since the nineteenth century, in spite of pro-natalist policies, has 
always exhibited slow rates of growth, due in part to relatively late 
age at marriage, in part to economic development that made it more 
advantageous to have small rather than large numbers of children, and 
in part, especially in the twentieth century, to periodic cataclysms 
(wars, emigration, deportation) and slower processes, such as 
assimilation. Still, a large decline in the absolute number of Latvians 
has not happened since World War I, and, before that, since the early 
eighteenth century. In the current situation, constrained incomes and 
increasingly expensive living space have reduced incentives for couples 
to have more than one or two children. Although these trends are all 
well known, it is difficult to see how--in the present economic 
circumstances--the Latvian government can afford large expenditures on 
pro-natalist social policy, even if the population, especially women, 
were receptive to it. The behaviors and attitudes that produce these 
trends may be beyond shaping by government policy, but they are 
nonetheless capable of producing severe consequences for the economy 
and for national security.
    A fourth unresolved problem revolves around the effort to create a 
law-based state, an ideal espoused by Latvian political leaders from 
1991 onward and recognized by them as a precondition for ``entering the 
West'' and for continued economic growth (e.g. commercial law). An 
immense amount of rapid practical thinking was needed in the period 
from 1990-1991, when separation from the USSR became a possibility 
about how to transform Latvia from a Soviet republic in which law was 
frequently overridden by the Communist Party, to a state in which law 
was paramount and equal for all. Rather than write a new constitution, 
the 1990-91 reformists opted to renew the Latvian Constitution of 1922, 
recognizing that this document would have to be adapted to the new 
circumstances in which the country would be acting as a sovereign 
state. The process of revising and adapting the 1922 Constitution has 
been going on since 1991, and continues at this writing. In fact, the 
difficulties encountered have led President Guntis Ulmanis to reflect 
recently that perhaps an entirely new constitution is needed, and this 
thought appears to be supported by about 52% of the population, 
according to opinion polls.
    The problem of creating a new regime of viable law for Latvia is 
not an unprecedented one: it was faced by the 1918 republic as it 
sought to extricate itself from the legal system of the old Romanov 
Empire. Whereas in the new USSR Imperial law was rewritten quickly, in 
Latvia some part of the old Russian law code -such as criminal law--
under which all Latvians had been living before 1918--continued as the 
basis for the law of the land in the post-1918 period until as late as 
1937. Currently, since 1991, legal reform has involved primarily the 
extrication of the country's legal system from the now defunct Soviet 
system, with an additional complication. Latvia's desire to become 
integrated with western (especially western European) institution has 
meant that basic laws as well as parliamentary legislation has had to 
be coordinated with western codes and legal ideas, especially in such 
relatively new and somewhat mysterious domains as human rights. 
Further, since in the Soviet system commercial dealings were state-
directed, a commercial law has had to be created; and since property 
rights were only minimally recognized in Soviet law, this domain also 
has had to be created almost anew. In 1996, the Latvian parliament 
created a Constitutional Court whose function it would be to resolve 
conflicts growing out of an evolving constitution, as well as conflicts 
created by law codes being created at different speeds, but this court 
has not yet developed a widely recognized stature in the legal system. 
While the trajectory toward a law-based state is clearly present, the 
time needed for this task has been much longer than anyone had 
expected.
    With respect to legal reform, one major difference between the 
1920s and the 1990s has been that in the former period, even though 
Tsarist laws were still very much part of the picture, there was 
widespread confidence in the population that the new government would 
revise and adapt them fairly. Currently, the general population is much 
more cynical about legal reform, perhaps because of the holdovers 
within the current political elite from the Soviet to the post-1991 
period. Except for a few well-known individual cases, Latvia did not 
create lustration laws after 1991, producing among the most cynical the 
attitude of ``old wine in new bottles.''
    A fifth problem concerns the question of deeply political 
democratization has settled within the population of the country. The 
institutional framework within which democratic political impulses 
could play themselves out was been in place from 1991 onward, and will 
continue to supply the ground rules for some years to come. During the 
past six years there have been two peaceful national parliamentary 
elections (1993; 1995; a third will take place in October 1998), in 
both of which voter participation was substantially above the 65% mark; 
two rounds of municipal local and elections (1994, 1997); and a single 
president--head of state--who was elected by the parliament in 1993 and 
reelected in 1995. Five prime ministers have headed cabinets during 
these years, and in each parliamentary election a large number of 
political parties (1993-23; 1995-29) have contented for supremacy. 
Since the Constitution of 1922 requires a multi-party parliamentary 
system with proportional representation, the proliferation of political 
parties was predictable from the very beginning of the return to 
electoral politics in 1993.
    Given the fact that Latvia had not had a direct experience with 
democratic politics since 1934 (when Karlis Ulmanis established his 
popular authoritarian regime), this record--judged by such standards as 
the acceptance of political defeat, peaceful surrender of power, and 
continued high levels of voter participation--has to be judged as 
fairly good, and the prospects for continued political stability high. 
At the same time, Latvian commentators note three things about the 
current political climate. First, a multiparty system and proportional 
representation have produced an atmosphere similar to that which 
existed in the 1920s and early 1930s--the widespread belief that most 
politicians and parties seek power in order to enhance personal 
prestige and wealth, rather than the common good. The popularity of 
most political leaders--save the President--has not been long-lived, 
and political parties that seemed at the outset to command widespread 
loyalty have shown themselves as incapable of transforming this initial 
advantage into a permanent presence on the political scene. As a 
consequence, governance by cabinet has been through coalitions of the 
moment and sometimes razor thin majorities. Even the right-of-center 
parties--some of which have been a part of the Latvian political world 
for a decade now--do not have sufficient electoral strength to govern 
without seeking coalitions with the center. The parties of the left are 
fragmented and appear unable to form an effective opposition to the 
replace center-right coalitions.
    Second, observers continue to note the mistrust in the electorate 
of its political leaders, which places under a cloud the unquestionable 
success of democratic procedures. It is almost as if the voting 
population periodically engages in a ritual thought to be necessary for 
the new political world, without expecting elected leaders to actually 
accomplish anything of great importance. In some respects it is 
possible to say that the cynicism of the later Soviet period has 
returned to the political system, but is this time directed against 
democratically elected political leaders. Third, observers also 
continue to note that a very high proportion of Latvia's resident 
population continues to be excluded from political participation by 
citizenship laws. This is something of a dilemma: there is fear that 
the enfranchisement of those presently excluded will inevitably lead to 
a two-community state, but there is also the fact that continuing 
exclusion in fact tends to produce the same result. The current 
political debate certainly includes discussion of how, and with what 
speed, the non-citizens will become politically active once 
enfranchised, but it is not very clear what political effects that 
would have. Informed opinion holds that most of the newly enfranchised 
would vote for parties of the left.
    Finally, a sixth unresolved problem--again, really a problem 
cluster--concerns the Latvian economy. The annual GDP statistics show 
that the earlier dramatic fall of the GDP--which began in 1990--ceased 
in 1993 and that since that time levels have risen slightly by 3 to 4% 
with each year at least since 1995. Latvian structural adjustment to 
the withdrawal from the planned economy of the Soviet Union therefore 
is over, and macro-economic trends seem all to be pointing upward 
(though on much less of an incline than Estonia's) Nonetheless, the 
past three or four years have not brought respite from the continuing 
hardships of the transition A current -though questionable--statistic 
suggests that some 75-80% of the population is managing to live on 
incomes be/ow the official minimum, but it is not clear that this 
income statistic includes more than the official income-producing job. 
In fact, most employed persons have more than one source of income--
sometimes as many as three or four. The Latvian economy belongs within 
the category of unresolved problems because in it accomplishment 
contrasts so greatly with continued deficiencies. Most farmland, for 
example, has been privatized (creating more than 50,000 family farms), 
but a very high proportion of these--perhaps most--are likely to fail 
because of lack of resources. In terms of absolute numbers, the very 
rich and the very poor have grown at a much faster pace than middle-
income individuals and families, demonstrating that the creation of 
large ``middle-class'' (as measured by income) will continue to be a 
very slow process. There has been a very rapid growth of commercial and 
service jobs (especially in cities) in the private sector, but a very 
high proportion of the employed--teachers, for example, and medical 
personnel--are still tied to the so-called ``budget jobs,'' i.e. their 
salaries come from the national budget. Most banks in Latvia are now 
solvent, but confidence in the banking system has not yet returned to 
the levels of the year before the ``bank crisis'' of 1995-1996 Though 
economic relations with western Europe continue to develop, there is 
still very great dependence on the Russian economy (especially for fuel 
supplies). Economically, the transition has not yet carried Latvia to a 
point of unfeigned selfconfidence, but the trajectory is certainly in 
that direction

    Senator Smith. Thank you very much. That is very 
informative. Dr. Raun.

  STATEMENT OF DR. TOIVO RAUN, DEPARTMENT OF CENTRAL EURASIAN 
          STUDIES, INDIANA UNIVERSITY, BLOOMINGTON, IN

    Dr. Raun. Thank you, Mr. Chairman. I do have a somewhat 
longer statement that I have submitted to the committee, and I 
would like to summarize and abbreviate that now.
    Senator Smith. Thank you.
    Dr. Raun. What I want to do is offer an assessment of 
Estonia's political, economic, and social development in the 7 
years since the restoration of independence in August-September 
1991.
    Politically, Estonia has made substantial progress in the 
process of democratization certainly comparable to the levels 
achieved by its Baltic neighbors and by the Visegrad countries 
of East Central Europe.
    Among the States formerly under Soviet rule, Estonia was 
the first to adopt a new constitution in June 1992 and to hold 
post-communist parliamentary and Presidential elections in 
September of that year. Drawing on the liberal democratic 
tradition of Estonia's first independence period, and on 
western models, the 1992 constitution established the supremacy 
of parliament as was the case in the 1920's.
    The framers of the constitution clearly intended that 
Presidential powers be more ceremonial than real, looking back 
to problems with authoritarian rule in the 1930's. In practice, 
however, the evolution of Estonia's political system in the 
1990's has witnessed some shifting of power toward the 
presidency.
    For various reasons, including an electoral system, as in 
Latvia, based on the principle of proportional representation, 
the parliament, or Riigikogu, has remained relatively 
fragmented and has often not provided decisive leadership in 
national politics.
    For example, since March 1997, Prime Minister Mart Siimann 
has led a minority Government whose options for showing 
initiative are sharply limited.
    On the other hand, the incumbent President Lennart Meri, 
elected in 1992 and reelected in 1996, is a charismatic figure 
whose approval rating is consistently higher than that of any 
other Estonian politician, and he has chosen to play an 
activist role in both foreign and domestic policy.
    Whether the current balance of power, or the shift in 
balance of power is a temporary phenomenon, or whether it has 
more lasting precedence, remain to be seen. According to the 
constitution, Meri cannot serve more than two consecutive terms 
and must vacate the presidency following the next elections in 
2001.
    It is also likely that the fragmentation in parliament will 
be somewhat remedied because of a new law going into effect in 
March 1999 requiring a minimum of 1,000 members for the right 
to compete in national elections for any political party.
    Despite the parliamentary fragmentation, the considerable 
turnover in the cabinet, and the occasional scandals associated 
with prominent politicians, the political system as a whole has 
functioned smoothly with strict adherence to the new 
constitution.
    All elections, both national and local, have been held as 
scheduled, and international observers have declared them fair 
and free.
    As in the waning years, in the tense waning years of Soviet 
rule, the post-communist era in Estonia has been characterized 
by a notable absence of political violence.
    The voter turnouts in the two parliamentary elections in 
1992 and 1995 was about two-thirds, a clear decline from levels 
established in the relatively free elections at the end of the 
Soviet era, but not much below recent voter turnout, for 
example, in neighboring Finland.
    The most painful legacy of Soviet occupation in Estonia was 
the massive emergence of a non-Estonian presence which grew to 
just over 600,000 persons in a country of around 1.5 million in 
1989, 39 percent of the population versus an estimated only 3 
percent in 1945.
    Mainly because of emigration in the early 1990's, the 
Russian and other non-Estonian population fell by nearly 
100,000 persons by the start of 1998, raising the Estonian 
share of the population to just over 65 percent. Nevertheless, 
by last year, out-migration had virtually come to a halt, and 
it is clear that the remaining non-Estonians in Estonia are 
there to stay.
    Overall, as in nearly all postcommunist societies in 
Europe, all nationalities in Estonia have experienced a 
negative natural population increase since the early 1990's, 
and this trend can be expected to continue for the foreseeable 
future.
    The citizenship issue is certainly a very complicated one. 
Only about 80,000 non-Estonians receive citizenship by descent 
from the previously existing Republic of Estonia before Soviet 
rule in June 1940. A naturalization law was passed in November 
1991 which restored the 1938 citizenship law, and because it 
required 2 plus 1 years of waiting time, it meant that in the 
1992 elections, the national parliamentary elections, there 
were very few non-Estonians who participated.
    Nevertheless, the proportion of non-Estonians participating 
in the elections is growing as citizenship is growing, and the 
number of naturalized citizens since 1992 has reached, now, 
about 100,000, and in March 1999 one can expect at least 15 
percent of the electorate will be formed by non-Estonians, and 
it is not, certainly, to be assumed that non-Estonians will 
engage in ethnic bloc voting, voting, simply, let us say, for 
Russian parties. A considerable number will support Estonian-
led parties, especially the Center Party, but others as well.
    In the 1990's, Estonia's foreign policy has focused on two 
major issues, integration with the West, especially Europe, and 
reaching a modus vivendi with its large eastern neighbor, the 
Russian Federation.
    An early success for Estonia was admission to the Council 
of Europe, already in May 1993 despite vocal Russian 
opposition. Predictably in recent years attention has focused, 
of course, on the European Union and NATO, and Estonia, as we 
know, was invited to join the short list of candidate States 
for possible EU membership in 1997.
    Nevertheless, it should not be assumed that there is 
overwhelming support in Estonian public opinion for joining 
these organizations. Regarding the EU, for example, there is 
considerable opposition among the agrarian sector on the 
political right, and among cultural nationalists.
    Whatever the specific ties Estonia develops with the EU and 
NATO turn out to be, it is clearly in the country's interest to 
fashion a wide range of international connections to offset the 
opposing presence of Russia on its border. An identity crisis 
that continues to bedevil the Russian political elite has had a 
major impact on Estonian-Russian relations, making it difficult 
to resolve such issues as the border dispute between the two 
countries.
    One can hope for a change in Russian thinking over time if 
democratization and economic development succeed but, in the 
meantime, the Baltic States clearly need vigorous western 
support in charting relations with the main heir to the Soviet 
empire.
    In the economic sphere, Estonia took the lead among former 
Soviet republics in introducing its own currency, the crown--
kroon--already in June 1992, allowing it to escape the ruble 
zone and the rampant inflation associated with it.
    With the reestablished Bank of Estonia keeping a tight rein 
on the money supply, inflation was brought under control by 
mid-1993.
    An independent currency also fostered diversification of 
trade relations, and Finland replaced Russia as Estonia's 
leading trading partner before the end of 1992.
    Estonia's first post-independence Government under Mart 
Laar pursued an aggressive free market policy and created an 
attractive environment for direct foreign investment. On a per 
capita basis, Estonia ranked very near the top in this regard 
among all post-communist countries.
    The greatest involvement in investment came from 
neighboring Scandinavia, especially Finland, with whom Estonia 
has had strong cultural and linguistic ties. After several 
years of inevitable economic downturn in the early transition 
years, Estonia's GDP has grown at a substantial rate in the 
recent past, a little over 4 percent in 1995 and 1996 and even 
11 percent in 1997, a projected 8 percent in 1998.
    Despite recent problems with the Rural Bank, a minor player 
on the financial scene in Estonia, the banking sector in the 
country has established probably the best reputation for sound 
management in the Baltic States.
    On the negative side of the economic ledger, one should 
note the negative balance of foreign trade as imports continue 
to outweigh exports, a problem for which no solution appears to 
be in sight. The wide-open nature of the transitional economy 
has allowed some individuals, especially those in the financial 
sector, to strike it rich. It has also left certain groups 
behind. For example, retired persons and those employed in 
agriculture and education. The result has been a heightening of 
inequality of income and wealth, as well as social tensions.
    A further challenge for the Estonian economy is to overcome 
regional differences. Estonia is only half the size of Indiana, 
but there are important regional differences which have 
developed over recent years, especially between the prosperous 
capital city of Tallinn, which has a large 30 percent of the 
total population, and some of the poorer outlying areas such as 
the rural southeast of the country.
    In view of the massive population shifts and changes 
wrought in the national composition of Estonia under Soviet 
rule, ethnic relations have remained a key issue during the 
1990's. A striking point that needs to be stressed is that, 
despite tensions, relations among Estonians and non-Estonians 
have been nonviolent, manageable, and gradually improving.
    Opinion polls suggest that a certain rapprochement is 
taking place, and that younger generations and non-Estonians 
increasingly identify with Estonia. Nevertheless, the 
challenges of integrating a foreign-born population that 
reached 26 percent of the total in 1989 remain formidable.
    Moreover, there are important regional differences in 
ethnic composition in various parts of the country. Russians 
and other non-Estonians are concentrated in the urban areas in 
the industrial northeast. For example, they form 96 percent of 
the population of Estonia's third largest city, Narva.
    The most workable solution to Estonia's ethnic mosaic would 
be the development and encouragement of multiple identities, or 
that individual ethnic groups would retain their linguistic and 
cultural uniqueness, but also accept a civic identity 
associated with Estonia as a whole.
    The educational sector has a great potential as an agent of 
integration, and in theory provides a solid knowledge of 
Estonian as the State language to members of all nationalities. 
In practice, however, the resources, both human and material, 
to achieve this aim in any systematic way, are at present 
lacking.
    A Western visitor who comes to the capital of Estonia 
today, especially the bustling central city, will be impressed 
by what he sees. However, social divisions have grown, as I 
mentioned, and it behooves the Estonian authorities to maintain 
and further develop a social safety net. State pensions tripled 
in the years 1994 to 1997, but the level of benefits remains 
relatively low.
    As in other post-communist societies, crime remains a 
serious problem and has to be addressed, and a less visible and 
crucial social issue is the psychological legacy of 5 decades 
of Soviet rule under a political system that routinely engaged 
in intimidation and repression of the population.
    As in other societies that have lived through highly 
repressive regimes, there is broad agreement that the best way 
to deal with this burden of the past is not to ignore it and to 
sweep it under the rug, but to deal with it openly.
    Overall, let me conclude by suggesting that the record of 
Estonia's political, economic, and social development in the 
past 7 years is distinctly positive. Challenges remain, but in 
view of the difficult legacies of communist rule and the social 
and economic problems with which the country was saddled, the 
achievements have been striking.
    Thank you.
    [The prepared statement of Dr. Raun follows:]
                  Prepared Statement of Toivo U. Raun
    In the seven years since the restoration of its independence in 
August-September 1991, Estonia has made substantial progress in the 
process of democratization, certainly comparable to the levels achieved 
by its Baltic neighbors and the Visegrad countries of East Central 
Europe. Among the states formerly under Soviet rule, Estonia was the 
first to adopt a new constitution in June 1992 and to hold post-
communist parliamentary and presidential elections in September 1992. 
Drawing on the liberal democratic tradition of Estonia's first 
independence period in the interwar era and on various Western models, 
the 1992 constitution established the supremacy of the Riigikogu, a 
unicameral parliament with 101 members, by giving it ultimate authority 
over all key political decisions, including legislation, appointment of 
ministers, longevity of governments, and treaties with foreign 
countries. The Riigikogu also elects the president, although there is 
much support--both among voters and politicians--for a system of direct 
popular elections. Indeed, direct election of the president took place 
under a one-time compromise in 1992, and the issue continues to inspire 
public debate. The framers of the 1992 constitution clearly intended 
that presidential powers be more ceremonial than real, but the 
president does represent the country in international relations, 
nominates the first two choices for prime minister, and can force 
parliament to reconsider legislation.
    In practice, the evolution of Estonia's political system in the 
1990s has witnessed some shifting of power toward the presidency. For 
various reasons, including an electoral system based on the principle 
of proportional representation, the Riigikogu has remained relatively 
fragmented and has often not provided decisive leadership in national 
politics. For example, since March 1997, Prime Minister Mart Siimann 
has led a minority government whose options for showing initiative are 
sharply limited. On the other hand, the incumbent president, Lennart 
Men, who was elected in 1992 and reelected in 1996, is a charismatic 
figure whose approval rating is consistently higher than that of any 
other Estonian politician. He has chosen to play an activist role in 
both foreign and domestic policy, seeking to interpret the constitution 
in ways that would enhance presidential power. Whether the current 
balance of power is a temporary phenomenon or whether more lasting 
precedents have been set remains to be seen. According to the 
constitution, Meri cannot serve more than two consecutive terms and 
must vacate the presidency following the next elections in 2001. It is 
also likely that the number of political parties represented in the 
Riigikogu will decline following the next parliamentary elections, 
slated for March 1999, because of a new law requiring a minimum of 
1,000 members for the right to compete in national elections.
    Despite parliamentary fragmentation, the considerable turnover in 
cabinets, and occasional scandals associated with prominent 
politicians, the political system as a whole has functioned smoothly 
with strict adherence to the new constitution. All elections, both 
national and local, have been held as scheduled, and international 
observers have declared them fair and free. As was the case during the 
tense waning years of Soviet rule, the post-communist era in Estonia 
has been characterized by the notable absence of political violence. 
About two-thirds of the eligible voters participated in the 1992 and 
1995 Riigikogu elections, a clear decline from the levels established 
in the relatively free elections held at the end of the Soviet era, but 
not much below recent voter turnout in neighboring Finland. On the 
local level, where non-citizen permanent residents can vote (but not 
run for office), the rate of participation was just over 50 percent in 
both 1993 and 1996. It seems clear that for many potential voters much 
less was at stake in the elections following the restoration of 
independence, and it is also likely that the socioeconomic 
disorientation of the early years of transition contributed to voter 
alienation.
    The most painful legacy of Soviet occupation in Estonia was the 
massive non-Estonian presence which grew to just over 600,000 persons 
in 1989 (38.5 percent of the total population compared to an estimated 
3 percent in 1945). About 80 percent of the non-Estonians in 1989 were 
ethnic Russians. Mainly because of emigration in the early 1990s, the 
Russian and other non-Estonian population fell by nearly 100,000 
persons by the start of 1998, raising the Estonian proportion of the 
total population to over 65 percent. However, by 1997, out-migration 
had virtually come to a halt, and it is clear that the remaining non-
Estonians in Estonia are there to stay. Overall, as in nearly all post-
communist societies in Europe, all nationalities in Estonia have 
experienced a negative natural increase in population since the early 1 
990s, a trend that can be expected to continue for the foreseeable 
future. In this demographic situation the issue of citizenship became a 
crucial factor in Estonian political life.
    In the restored state of Estonia, all those who were citizens 
before Soviet occupation in June 1940, and their descendants 
(overwhelmingly ethnic Estonians, but including some 80,000 non-
Estonians), were automatically considered citizens. The status of non-
citizens was regulated by the 1938 citizenship law, restored by the 
Riigikogu in November 1991. Naturalization required two years of 
residence and an additional one-year waiting period, modest competence 
in Estonian, and an oath of loyalty to the constitution. Thus, 
participation by non-Estonians in the 1992 national elections was 
perforce limited, but already by 1995 a non-Estonian electoral alliance 
called Our Home Is Estonia secured six seats in the Riigikogu. The 
proportion of citizens of Estonia among non-Estonians has continued to 
rise (in 1996-1997 by about 33,000 persons) and reached a total of over 
one-third by mid-1998. It is clear that the role of Russian and other 
non-Estonian voters, who will form at least 15 percent of the 
electorate in the March 1999 parliamentary elections, will be even 
greater than in previous ballots. Nevertheless, it is not likely that 
the non-Estonians will engage in ethnic bloc voting. As in 1995, a 
considerable number will support Estonian-led parties, especially the 
Center Party, but also the Moderates, the Coalition Party, and the 
Reform Party.
    In the 1990s Estonia's foreign policy has focused on two major 
issues: (1) integration with the West, especially Europe, and (2) 
reaching a modus vivendi with its large eastern neighbor, the Russian 
Federation. An early success for Estonia was admission to the Council 
of Europe, already in May 1993, despite vocal Russian opposition. In 
the recent years attention has predictably centered on candidacy for 
the European Union and NATO. Although not selected for the first round 
of post-Cold War expansion by NATO in 1997, Estonia was invited to join 
the short list of candidate states for possible EU membership in the 
same year. It should not be assumed, however, that there is 
overwhelming support among Estonian public opinion for joining these 
organizations. Regarding the EU, for example, there is considerable 
opposition among the agrarian sector, the political right, and cultural 
nationalists. Whatever the specific ties that Estonia develops with the 
EU and NATO turn out to be, it is clearly in the country's interest to 
fashion a wide range of international connections to help offset the 
imposing presence of Russia on its border. The identity crisis that 
continues to bedevil the Russian political elite has had a major impact 
on Estonian-Russian relations, making it difficult to resolve such 
issues as the border dispute between the two countries. Still swayed by 
an imperial mentality, many Russian politicians are loath to give up on 
any means to retain influence in Estonia and the other Baltic states. 
One can hope for a change of thinking over time in Russia, if 
democratization and economic development succeed, but in the meantime 
Estonia, Latvia, and Lithuania clearly need vigorous Western support in 
charting relations with the main heir to the Soviet empire.
    In the economic sphere Estonia took the lead among former Soviet 
republics in introducing its own currency, the kroon (crown), already 
in June 1992, allowing it to escape from the ``ruble zone'' and the 
rampant inflation associated with it. With the reestablished Bank of 
Estonia keeping a tight rein on the money supply, inflation was brought 
under control by mid-1993. An independent currency also fostered 
diversification of trade relations, and Finland replaced Russia as 
Estonia's leading trading partner before the end of 1992. Estonia's 
first post-independence government under Prime Minister Mart Laar 
pursued an aggressive free market policy and created an attractive 
environment for direct foreign investments. On a per capita basis, 
Estonia ranked very near the top in this regard among all post-
communist countries, including those in East Central Europe. The 
greatest involvement came from neighboring Scandinavia, especially 
Finland, with whom Estonia also has strong cultural and linguistic 
ties. After several years of inevitable economic downturn in the early 
transition years, Estonia' 5 GDP has grown at a substantial rate in the 
recent past: 4.3 percent in 1995, 4.5 percent in 1996, 11.4 percent in 
1997, and a projected 8 percent in 1998. Despite recent problems with 
the Maapank (Rural Bank), a minor player on the financial scene, the 
banking sector in Estonia has established the best reputation for sound 
management among those in the Baltic states.
    On the negative side of the economic ledger one should note the 
negative balance of foreign trade as imports continue to outweigh 
exports, a problem for which no solution appears to be in sight. The 
wide-open nature of the transitional economy has allowed some 
individuals, especially those in the financial sector, to strike it 
rich, but it has also left certain groups behind, e.g., retired persons 
and those employed in agriculture and education. The result has been a 
heightening of inequality of income and wealth as well as social 
tensions. A further challenge for the Estonian economy is to overcome 
the regional differences that have developed in recent years, 
especially between the prosperous capital city of Tallinn (with just 
under 30 percent of the total population in the country) and some of 
the poorer outlying rural areas such as the southeast.
    In view of the massive population shifts and the changes wrought in 
the nationality composition of the population under Soviet rule, ethnic 
relations have remained a key issue in Estonia during the 1990s. The 
striking point that needs to be stressed is that despite tensions, 
relations among Estonians and non-Estonians have been non-violent, 
manageable, and gradually improving. Opinion polls suggest that a 
certain rapprochement is taking place and that the younger generations 
of non-Estonians identify increasingly with Estonia. Nevertheless, the 
challenges of integrating a foreign-born population that reached 26.3 
percent of the total in 1989 remain formidable. Moreover, there are 
important regional differences in ethnic composition in various parts 
of the country. Russians and other non-Estonians are concentrated in 
the urban areas, and in the industrial northeast they form 96 percent 
of the population of Narva, Estonia's third-largest city. The most 
workable solution to Estonia's ethnic mosaic could be the development 
of multiple identities whereby individual ethnic groups would retain 
their linguistic and cultural uniqueness, but also accept a civic 
identity associated with Estonia as a whole. The educational sector has 
great potential as an agent of integration and in theory provides a 
solid knowledge of Estonian as the state language to members of all 
nationalities. However, in practice, the resources--both human and 
material--to achieve this aim in any systematic way are at present 
lacking. More foreign aid, already available to some extent, could be a 
crucial factor in helping to meet this challenge.
    A Western visitor who comes to Tallinn today, especially the 
bustling central city, will be impressed by what he sees. As noted 
above, however, social divisions have grown in the 1990s, and it 
behooves the Estonian authorities to maintain and further develop a 
social safety net. State pensions tripled in the years 1994-1997, for 
example, but the level of benefits remains relatively low. As in other 
post-communist societies, crime is a serious problem, especially theft 
and crimes against property, which continue to grow. A positive sign is 
that the number of murders peaked in 1994 and has dropped every year 
since then. A less visible, but crucial social issue is the 
psychological legacy of five decades of Soviet rule under a political 
system that routinely engaged in intimidation and repression of the 
population. As in other societies that have lived through highly 
repressive regimes, there is broad agreement that the best way to deal 
with this burden of the past is not to ignore it, but to deal with it 
openly.
    Overall, the record of Estonia's political, economic, and social 
development in the past seven years is distinctly positive. In view of 
the difficult legacies of communist rule and the social and economic 
problems with which the country was saddled, the achievements have been 
striking.

    Senator Smith. Thank you very much, Dr. Raun.
    When you talk about support in Estonia for EU and NATO 
membership, do you have a percentage? Have you seen polling?
    Dr. Raun. Of course, one of the important phenomena of the 
post communist era is introduction of polls almost every week, 
so one can choose one's poll, practically.
    Senator Smith. Are they scientific?
    Dr. Raun. I think they are quite good, given the 
background. That is, that the country had 50 years of being 
cutoff from this and had very little experience in it.
    One probably should take them with a bit of a grain of 
salt, and it does depend on the context, but recent polls 
suggest that clearly a plurality and maybe a slight majority 
favor both the EU and NATO, and NATO probably higher, to go 
back to the question that perhaps was raised earlier that NATO 
is perhaps perceived as offering more immediate solution to the 
problem of security.
    EU does raise this question--it raises the question of what 
will be the impact of further inundation of international mass 
culture in a small society which has survived 50 years of 
Soviet rule and then imposition of all things Russian, and some 
cultural critics suggest we are not resisting the coming of 
international mass culture and all the things--we are accepting 
uncritically everything that comes from the West because we are 
so happy to be away from Soviet rule, the question of perhaps 
inundation of labor if the borders are opened in terms of 
membership in the EU.
    I think Estonia in particular looks very much to its 
northern neighbor, Finland, with which it has very close ties, 
and I think a lot of people have been reassured that Finland 
has not become some sort of outpost of, let us say, Western 
Europe, or has totally become Americanized or Anglicized 
because of this process of being in the European Union for the 
last 3 years.
    But it is fairly close, but I would say that the sentiment 
for NATO is a bit stronger.
    Senator Smith. Thank you. Dr. Plakans, when you speak of 
the depopulation of Latvians, it seemed like you were 
suggesting numbers that are even greater than in Europe 
generally. Depopulation is increasingly a problem in social 
welfare States. Is it a greater problem? Is anything being done 
to address this, or to turn it back?
    Dr. Plakans. Depopulation?
    Senator Smith. That is what it seems like. They are not 
repopulating themselves as a nation if they are smaller today 
than they were in 1938, I think was the number you gave.
    Dr. Plakans. This phenomenon of low fertility in all age 
groups and other demographic behaviors that reduce the total 
population is very similar, as you say, to the demographic 
characteristics of fully industrialized countries.
    The problem for Latvia is that it comes at a time when the 
national ego is already very fragile, and then to be faced with 
the prospect, which is perhaps more imagined than real, but 
still it has psychological reality, of somehow diminishing to 
the point of zero, just exacerbates all of the other problems.
    There is not going to be a disappearance of the Latvian 
population, but it does make for a very potent political symbol 
to talk as if there were such a possibility.
    In terms of the practical questions of tax revenues, the 
army, labor force and so on, there is no doubt whatsoever that 
this is going to be a set of problems. It is unfortunate. It is 
one thing for these characteristics to show up in a very robust 
industrialized country, say, Sweden, but another one, another 
problem entirely, when they show up in a country which is just 
barely pulling itself out of the Soviet system of a planned 
economy, and trying to establish a free market economy. It is 
very problematic.
    Senator Smith. I assume that they have social welfare 
expectations, and I assume, if they do, they are then 
demographically unsustainable.
    Dr. Plakans. Well, in the very long run they are 
unsustainable. My guess is that there are going to be things 
done to expand the social safety net, especially for the older 
people, and so on, but it is problematic. The resources are not 
there.
    Senator Smith. Dr. Krickus, you, if I understand your 
testimony, were saying that inclusion in NATO or in the EU 
should not be regarded as all or nothing, but each can come in 
on its own merit and timetable. If you were king for a day, 
what timetable would you set for these countries to be included 
in NATO, first, and/or the European Union?
    Dr. Krickus. First, let me say about NATO, I think that 
most of the critics of enlargement have it all wrong. I 
listened to the debates very closely. Many people I admire very 
much in the Senate who are usually right on most issues, but 
they have a right to be wrong on some, said that the people who 
support the Balts in NATO are so-called warriors. Well, it is 
just the opposite.
    The idea that the Baltic countries have to make an effort 
militarily in order to gain membership in NATO is based upon 
the proposition that we are going to deal with the Soviet Army 
moving through the Fulda Gap. That is not going to happen 
again.
    The major problem in Europe is the transition from closed 
to open societies, and all the problems that these gentlemen 
and others have been talking about.
    Now, there is a military component to it, because we have 
to deal with fascists like Milosevic in the Balkans, but the 
reality is that the major goal for NATO is to keep its powder 
dry, but to bring in those countries which are democratic 
because stability is going to be a fundamental issue.
    I would say to Senator Biden's constituents--from time to 
time when I drive to Rehobeth I eat their chicken on Route 50--
listen, it is in everyone's interest to have stability in 
Europe because instability costs you more. Baltic countries are 
democratic. Their history has been such that they were the 
people who brought down the Soviet Union.
    We lost 100,000 people during the cold war, three times 
that number maimed, at a cost of billions of dollars, and when 
I was in the U.S. Army one of the things they lectured to us, 
we are not only trying to save the United States from Soviet 
attack, we are trying to promote democracy, but give other 
people in the world a prospect of being democratic States.
    We now have these democratic States. They are precious 
commodities. We should not ignore them. It is in our vital 
self-interest.
    So what I am saying is that I think that most of the people 
who are talking about these folks meeting certain economic 
requirements in terms of the EU and military requirements in 
terms of NATO have it all wrong. The reality is, we want 
stability, and that is good for everyone.
    Senator Smith. Well said.
    Senator Biden.
    Senator Biden. If you watched those debates, doctor, you 
would notice I took more time than I should have, making the 
case you just made.
    But let me be a devil's advocate with you for a moment. 
Senator Moynihan and others for whom I have great respect and 
with whom seldom disagree but found myself at odds with during 
the debate, and Senator Warner and others, basically said, and 
I am not speaking for any one of them, ``you are right, doctor, 
you are right, Biden, stability is the answer, stability is 
best gained through EU membership and economic growth. Meeting 
the military requirements and the cost of becoming full-fledged 
members of NATO takes limited dollars away from economies that 
are struggling out from under a planned economy and devotes 
them to a military threat that does not exist, and in so doing 
destabilizes the social fabric of the country in question.
    ``Therefore, even though you are gaining a `military 
alliance' you are destabilizing the country in terms of its 
well-being and its economy in countries of fragile egos, to use 
a phrase someone used a moment ago, and with serious domestic 
problems relating to the population make-up, they should be 
using their resources to deal with those issues and not with 
joining NATO.''
    How do you respond to that?
    Dr. Krickus. Well, they are the ones who established the 
criteria for entering NATO, by establishing military criteria 
which have no relevance to the post cold war world. The Soviet 
Union is not going to be resurrected and attacking Europe any 
time soon, if ever. They are the ones who established those 
criteria. The people who live in those countries, if they are 
prepared to make that sacrifice--and they are, because they 
have experienced 50 years of oppression.
    I spoke to a Finnish businessman who said, well, Finland 
did very well with the situation it had with the Soviet Union, 
and I said, yes, sir, but you did not have any Soviet troops in 
Helsinki, and that is why these people are looking for the safe 
harbor of NATO.
    Senator Biden. Well, I understand that, but in all due 
respect, you have not answered my question. I understand why 
they are looking for it.
    It seems to me, the way you have answered the question is 
saying that NATO is more of a political alliance now than it is 
a military alliance, and that is what it should be.
    Dr. Krickus. It always has been, as you said, and I thought 
Senator Smith said the same thing, and I would agree.
    Senator Biden. But it also has had an incredible military 
component. The point I made and read from the charter of the 
Washington treaty is that while it was intended to be 
political, it was to be primarily military. It seems to me your 
answer is suggesting that we should rethink NATO. We should 
rethink the rationale for NATO, and the rationale for NATO 
should be first and foremost based upon political stability, 
second on military contribution.
    Now, if we go the route you are suggesting, you will never 
get that chicken farmer, who is a hell of a lot smarter than 
you are, if you gave him the answer you just gave me--there has 
to be a more articulate rationale for him to agree.
    You either say that the positive focus of NATO remains the 
military alliance, in which membership requires full 
participation--a first class ticket requires a first class fare 
to be paid, and you either go it that route or you call it 
something else, or you do what Moynihan suggests.
    You say, EU membership provides you everything you would 
have gotten, full integration in the economic marketplace of 
Europe, the ability for your economy to grow, and a spending of 
dollars, or whatever the currency is in the particular country, 
on dealing with the domestic dilemma that is faced.
    Dr. Krickus. Well, as you pointed out, the Europeans have 
the manpower, they have the technology, they have the wealth to 
take care of the problems in Europe, but they do not have the 
political will.
    That is why the Germans and the French want us to remain in 
Europe, and that is why the people in the Baltic countries want 
us to, because the reality is the United States is the only 
country which has the capacity, economic and political and 
military, to play this role in the world today to stabilize 
Europe. That is why they want in.
    Senator Biden. OK, but that has nothing to do with NATO. 
What you are really saying is they want in because they want 
the United States in, and that is the bottom line, and the only 
place the United States is in the game is in NATO. We are not 
in the EU.
    Dr. Krickus. Yes, I think that is it.
    Senator Biden. OK, good. I am glad you got it right, so I 
could understand it anyway, because the chicken farmer in 
Delaware will get it. They are smarter, as I said, than you all 
give them credit for, because I think that is really the core 
of it.
    By the way--and by the way, when you speak to the 
leadership of the various countries seeking admission they look 
at you and they actually say things like, ``it is in America's 
security interest for us to be part of NATO.''
    As I said, there is no one in Dagsboro, Delaware, along 
Route 50 who is going to sleep any more soundly knowing that 
the Latvian military is there to protect them, or the Estonian 
military, or the Lithuanian military, or any other military but 
ours.
    They are going to view it as it is - a commitment being 
made by the United States to invoke Article 5 of the treaty 
that could get them in a war in an area of a world where many 
wars have begun. So they view it in the context of, ``hey, wait 
a minute, yo, you are helping my security, Joe? Right.''
    One of the things implicit, Dr. Plakans, in your unfinished 
business list is that I assume that in addition to the six 
things there are probably 12 things that have already been 
finished. I assume there are a number of things that, as Mike 
said--an old pal of yours--he said, ``look, there is limited 
time, focus on the things remaining to be done. Do not read 
that as meaning a great deal has not been done.''
    But part of that political stability, part of the stability 
of Europe, depends upon the internal political stability of the 
country seeking admission. Now, one of the things that concerns 
me about Latvia, and Estonia handled it slightly differently, 
was that when there was a parade of veterans of the World War 
II Latvian Waffen SS Division, the Latvian Government allowed 
senior Government representatives to attend. The Estonian 
Government concluded that that was not a good idea. The parade 
went forward, but they did not attend.
    Now, you go back to the point that the good doctor and I 
were talking about a moment ago. You talk about stability. Most 
Americans consider that it is unstable to have the World War II 
Latvian Waffen SS Division in a parade and the Government 
sending high-ranking officials to participate in that parade. 
That is not the thing you make friends and win influence in 
this country with.
    So my question is, what is the rationale behind that? Why 
would they not act as the Estonians did in the Estonian 
Government and basically say, ``we cannot stop the parade.''
    Now, we let the Ku Klux Klan march, but we do not have the 
President send a representative from the Joint Chiefs of Staff 
to march with the Ku Klux Klan, and I am making an analogy 
here.
    Dr. Plakans. Well, it is my understanding that the official 
or officials that did participate have lost their jobs.
    Senator Biden. OK, good. I did not know that. That is the 
most encouraging thing I have heard.
    Dr. Plakans. But the original rationale for allowing them 
to participate, I do not know what it is. It took me by 
surprise as well.
    Senator Biden. Well, they lost their jobs. Maybe they were 
not allowed in the first place, so I do not know.
    Dr. Plakans. I might say on that score thats in the United 
States, when veterans celebrate things, they are, all of them, 
assured of one thing, which is that they all fought on the same 
side. In Latvia, 140,000 or so young Latvians were conscripted 
to the German Army. About 80,000 Latvians were conscripted to 
the Soviet Army at the same time. Frequently these units fought 
each other under different flags.
    Now, 50 years later, those who were conscripted to the 
German Army finally are allowed to, in a sense, mark their 
comradeship of the trenches by marching in a parade which is 
guaranteed to them by their constitution under freedom of 
assembly. This is something which for 50 years they were not 
allowed to do, because the Soviet veterans were given the high 
praise.
    There are all sorts of ironies built into this country's 
situation, and the whole question of who veterans are, whom 
they served, who should be allowed to celebrate what, is in 
fact a very sensitive question in the country.
    Senator Biden. I concede that, and by the way, I would 
argue their right--as an American, I would argue their right to 
march. What I was confused about was why the Government 
appeared to sanction that, again, at a time when the effort is 
being made to communicate this notion of stability in dealing 
with these internal conflicts.
    Doctor, how about in Estonia?
    Dr. Raun. Well, I can second, I think, the comments made by 
my colleague, Andrejs Plakans, and it is not just Estonia and 
Latvia. I think it is many of the smaller peoples of East 
Central Europe.
    In the Baltic States they unfortunately did not have the 
opportunity in any real sense of fighting for themselves, and 
their countries were, in effect, liquidated by the Molotov-
Ribbentrop pact, as we heard earlier, and you could not fight 
for Estonia.
    Some actually went to Finland, and that was maybe in 
retrospect the most honorable thing to do. It was actually a 
very dangerous thing to do, but those who went there put their 
lives on the line thinking that they could in some way help 
restore Estonian independence.
    There was a lot of hope in things like the Atlantic 
Charter, and there was a lot of belief--perhaps it was false 
optimism, but there was a lot of belief that the western allies 
would restore the independence of the Baltic States after World 
War II if they could just hold out.
    The prime minister of Estonia before the Soviets came back 
in 1944 made a call for mobilization, and said in so many 
words, you know what I mean. I am not asking you to fight for 
the Nazis. I am not asking you to fight for the Germans. I am 
asking you to help us to hold the line here, hope against hope 
that maybe we can still come out of this as an independent 
country.
    Those kinds of choices that people had to make are 
extremely difficult, and perhaps hard to understand looked at 
from the outside, and there is this same situation where, in 
Estonia in particular, since it was the northernmost of the 
Baltic States, the Soviets were able to forcefully mobilize 
large numbers of Estonians, many of whom, of course, lost their 
lives in Soviet labor camps, some of whom ended up fighting on 
the Soviet side.
    Again, ethnic Estonians fought each other on the two sides, 
and the tragedy is they could not fight for themselves in a 
real sense, but they tried to do the best they could.
    Senator Biden. I am not, again, second-guessing those 
judgments made at the time. I am trying to get at the 
motivation now, the rationale that is being employed by the 
leadership in each of these countries to achieve what they wish 
to achieve, which is integration militarily, economically, and 
politically in the West.
    A last question, if I may, Mr. Chairman. One of the issues 
in the very beginning of the process with Poland's seeking 
admission was a sub-issue, just bubbling beneath the surface. 
It was in the aftermath of some of the controversy surrounding 
the Solidarity Government's response to alleged insensitivity 
to antisemitism.
    There was a real sense that they had better deal with that 
problem if they were going to be admitted. I am not suggesting 
that the synagogue in Riga, which was fire-bombed, makes Riga 
fundamentally different than any other city in Europe. Similar 
instances occurred in many places.
    But what piqued my interest was when one of you made 
reference to a Holocaust Commission, or a Holocaust--oh, that 
was Mr. Grossman. Excuse me.
    Can you speak to that for a moment? What is happening in 
terms of what is the motivation, what is the driving force 
behind what Secretary Grossman spoke about in terms of the 
Holocaust, the review of the Holocaust, or the Holocaust 
Commission? I do not know what the actual title was.
    Dr. Plakans. Is that for all three of us?
    Senator Biden. Yes.
    Dr. Plakans. Let me start on that very briefly. There is 
the suggestion that an independent commission should be created 
in each of the countries--at least I know for Estonia and 
Latvia, I am not sure about Lithuania--that would be composed 
of people indigenous to the area, as well as outsiders, who 
would be able in a series of studies to transcend the bitter 
historical memories of the area and come up with something like 
an objective account of what happened to the Jewish populations 
in these three countries from 1941 to 1945.
    As far as I know, the Latvian Government is supporting this 
idea. I am not quite sure how far it has moved in terms of 
resources or institutions and structures, but if such a 
commission were created it would obviously have to be one that 
understood how to deal with historical sources.
    It would have to be a commission that had a multilingual 
staff, because all of the sources that deal with the Holocaust 
issues, at least in Latvia, are in three or four different 
languages, and these sources would have to be all surveyed.
    Broadly, it would have to be a commission that had 
historians that were intimately familiar with the 
administrative structures of the German occupation government 
in the Baltic, the Ostland system, which is not an easy thing, 
because it was somewhat chaotic in any event.
    Now, if such a commission were in place, then it is very 
conceivable to me that a truly objective account in the Baltic 
of the Holocaust could be written. Until it happens, though, I 
think that the memories and the pain associated with that 
period are very much alive among people in the area and outside 
the area, and the research that is necessary is going to be 
difficult.
    There is a whole hidden history in Latvia of those years, 
which is hidden even more so because immediately in 1945 the 
Soviet-era historians clamped down on this whole period, 
monopolized all the sources, and basically painted it the way 
they wanted it painted for 50 years, so that all of these 
layers of falsehood and misrepresentation have to be scraped 
off before one gets to the bottom of it.
    Senator Biden. Doess either of you want to respond?
    Dr. Krickus. President Adamkus it seems to me recently said 
something to the effect, to look at both the Nazi and the 
Soviet period.
    I think what is really important that is happening with 
Lithuania is, the Lithuanians are working with B'nai B'rith to 
develop special curricula, as well as textbooks, and they have 
met, I think, recently training some teachers to deal with that 
period because of the awful slaughter that occurred, and I 
think they already have something in the ninth and tenth grade, 
but they are working with B'nai B'rith to develop a course 
which explicitly deals with that subject.
    I think it is absolutely imperative that all the Baltic 
countries and all the countries of Europe do the same thing.
    Dr. Raun. Well, yes, there is a similar situation in 
Estonia. I think President Meri has taken a special interest in 
this. It is, I think, broader than the Holocaust, in the sense 
that it deals with the whole issue of repression and the 
savagery that took place in the second world war and, for that 
matter, after as well.
    The idea, I think, clearly is to try to shed the light of 
scientific truth on this in the sense that, really, for the 
reasons Professor Plakans suggested, has not been possible 
until very recently. The Soviets simply had a political agenda 
and used what was there for their own purposes.
    Resources were difficult to get to. They are difficult to 
use, and it is only to be welcomed that something like this 
happens. I very much applaud that it is taking place.
    Senator Biden. Doctor, I think it is true that part of the 
story in Estonia is that there has been, in the last 6 or 7 
years, progress in dealing with the Russian minority and 
integrating it into the community. Please rate that progress, 
assuming it is progress, and it seems to me it is.
    Dr. Raun. I think it is. It depends on what sort of 
standard, of course, one uses. From the point of view of those 
non-Estonians who were in Estonia, let us say in 1991 and 
sought some sort of zero option--that is, immediate 
citizenship--clearly would like to see more, but in the context 
of what happened, in the context of those figures I gave, 
Estonia was 3 percent Estonian in 1945, only 62 percent 
Estonian in 1989 because of a direct result of conscious Soviet 
policy.
    In that context, one had to go slowly, I think, in this 
process, and the rate of integration, I think again one can 
assess it at different levels. I think it would be too much to 
ask that people of the older generation, older Russians in some 
sense, who have felt themselves as, let us say, Soviets for 50 
years can turn around at age 60 and make the transition. This 
is probably not going to happen.
    There is an important generational difference, and I think 
we are seeing this. They are holding, for example, summer camps 
now for Russian children to study Estonian, and to have 
interaction with Estonian kids.
    The process is a long-term one, but I think the figures 
suggest that the number of Russian and other ethnic non-
Estonians who become new citizens is increasing. By the second 
parliamentary election we had a Russian-based party.
    As I suggest in my remarks, this is not necessarily the 
best thing. In many ways it would be good if non-Estonians were 
integrated into general Estonian parties and you had 
integration on that level as well, that we do not have simply 
ethnic blocs in terms of voting.
    There will be more non-Estonian voters in 1999, as I 
suggested, and this I think is definitely a sign of gradual 
progress and it gives people time, I think, to assimilate the 
changes and to integrate gradually.
    Senator Smith. Thank you, Senator Biden.
    If there is no objection, we are going to include in the 
record a statement by the Baltic-American Freedom League.
    Gentlemen, we thank you. You have been very informative, 
and to all have taken time to attend this, we say that what has 
motivated this hearing is a desire on the part of the Ranking 
Member and myself to bring light to this issue, these 
countries, in the hopes that we can foster their greater 
inclusion in the West, both economically and in security.
    We have done this today as friends and, while some things 
have been discussed that may have made some uncomfortable, that 
is what democracy does and, frankly, that is what needs to 
happen if we are going to be good friends of these great 
nations and include them in closer relationships with this 
country.
    So with that, we thank you again, all of you, and this 
committee is adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee adjourned, 
subject to the call of the Chair.]



                            A P P E N D I X

                              ----------                              

Remarks by Strobe Talbott at U.S.-Baltic Partnership Commission, Riga, 
                          Latvia, July 8, 1988
    President Ulmanis, Foreign Minister Saudargas, Foreign Minister 
Ilves, Foreign Minister Birkavs, ladies and gentlemen, it is a personal 
pleasure for me to be here today. It was 12 years ago that I first 
visited Riga. The year was 1986, and I was part of an American 
delegation attending a path-breaking, window-opening, indeed door-
opening conference held in Jurmala. My fellow visitors and I could 
sense the vitality, the strength and the promise of the Baltic peoples. 
We also felt their longing for freedom.
    I cannot, however, claim that any of us foresaw where those 
qualities would lead in a few short years: to independence, to 
democracy, to integration into a new Europe, and to a multidimensional 
partnership with the United States.
    The principal custodian of that partnership on the American side is 
President Bill Clinton. He has asked me to convey to you all an 
expression of his greetings--and a reiteration of his commitment. As he 
told your own Presidents on January 16th in Washington, your American 
friends are committed to help you as you progress toward--and in due 
course through--the open doors of the Euro-Atlantic community's 
evolving and expanding institutions, very much including the new NATO.
    It is in the national interest of the United States that you regain 
your rightful place in the European mainstream. The upheavals of the 
20th century have taught us that when any part of Europe is isolated, 
repressed, unstable or torn by violence, the peace of the entire Euro-
Atlantic Community is at risk. We learned that lesson the hard way in 
the 20th century; we must apply it in the right way in the 21st.
    We are already doing so. Over the past six months, the commitments 
we have made to each other under the Baltic Charter have contributed to 
the prospects for Estonia, Latvia, and Lithuania as individual, 
distinct European states and to the prospects for Europe as a whole.
    In the realm of politics, we have worked together to consolidate 
your transition to democracy. The United States is supporting the 
development of local transition to democracy. The Untied States is 
supporting the development of local non governmental organizations 
through the new Baltic-American Partnership Fund, an initiative that my 
friend and colleague, the Deputy Administrator of our Agency for 
International Development, Harriet Babbitt, will be visiting each of 
your countries to discuss next week. We are also participating in the 
establishment of a graduate school of law here in Riga that will 
educate students from around the region.
    In addition, we are helping you help yourselves in the field of 
social integration particularly in support of legislation that meets 
the OSCE's recommendations on citizenship. Like the Untied States, 
Estonia, Latvia, and Lithuania are multi-ethhic societies. That fact 
presents both great opportunities and daunting challenges. The United 
States has learned from its own hard experience that if some members of 
the community are excluded from the benefits, opportunities, and 
responsibilities of citizenship, then the society and the nation as a 
whole suffer. In the Baltic Carter, all four of our nations have vowed 
to work toward inclusiveness and reconciliation as watchwords for the 
future. Each of your governments has taken important steps to translate 
those ideas into reality. As just one example, in May your Presidents 
jointly launched national commissions to study the periods of the 
Holocaust and of totalitarian rule in each of your countries. We salute 
you for that.
    Let me now turn to economics, another area in which we've made 
significant progress together. The bilateral working groups envisioned 
under the Baltic Charter have begun to identify key areas in which we 
can promote trade and investment. The American co-chair of that 
bilateral economic effort is my friend and colleague Undersecretary of 
State Stuart Eizenstat, who is heading this way later this week. He 
will be working with your colleagues on many of these same issues at 
the Council of Baltic Sea States Ministerial on Small and Medium Sized 
Enterprises in Vilnius on Friday, 10 July.
    Agriculture is a priority as well. The United States was pleased to 
join the Baltic States this morning in signing a memorandum of 
understanding that will expand our cooperation in that critical area.
    In all of our economic efforts, we are putting a premium on 
partnership with the private sector. It is therefore fitting that more 
than thirty senior representatives of Baltic and American businesses 
are participating in this inaugural meeting of the Partnership Council. 
I look forward to discussing with them later today the ways that we can 
work together to accelerate what has been called a Baltic Revolution--a 
tide of economic reform and integration that has made this region one 
of Europe's most promising.
    Finally, a word about security. As in the areas of democratization 
and economic reform, when you gained your independence seven years ago 
you faced tremendous challenges in meeting your security needs. To help 
you surmount those challenges, our Department of Defense last year 
undertook a study of defense plans and programs headed by one of our 
most capable senior officers, Major General Buzz Kievenaar. I'm very 
pleased that Admiral Malone and Col. Stolberg could represent the 
General here today.
    We are now working with your defense ministries to design long-term 
strategies to strengthen your self-defense capabilities and your 
ability to contribute to European security and stability. As part of 
that larger effort, we have developed a common position on the positive 
role that confidence-building measures can play in enhancing regional 
security, and we have initiated consultations on a range of arms 
control issues as well.
    Those are just a few examples of the growing number of initiatives 
on which we are working together not just in this region but across the 
continent.
    Let me close with a brief word about one of the countries of the 
Baltic region that we hope will increasingly participate in various 
cooperative regional endeavors in all of the areas I've touched upon in 
my remarks--politics, economics, and security--and in others that also 
deserve mention, such as preserving the natural environment. That 
country is Russia, a nation with whom you share a complex and often 
painful history. If Russia can come to see the Baltic States not as a 
pathway inward for invading armies or as a buffer against imaginary 
enemies, but as a gateway outward, to the new Europe of which it seeks 
to be an increasingly active part, then everyone will benefit--your 
countries, mine, Russia itself, and the Euro-Atlantic community as a 
whole. We will all be safer and more secure.
    Achieving that goal--like all the objectives I have touched on here 
today--will be far from quick or easy.
    But that said, the extraordinary record of your young democracies 
gives us, your American friends, reason for confidence and optimism. 
This past Saturday, on July 4th we in the United States celebrated the 
222nd anniversary of our own independence. Your countries regained 
their independence only seven years ago. That means we have a 
considerable head-start on you. That is grounds not for self-
congratulation--rather it is grounds for congratulating you. We are 
filled with admiration at how much you have accomplished in so short a 
time, and we are proud to be at your side in a great task of making 
sure that our common future vindicates the sacrifices--and avoids the 
mistakes--of the past.
    Thank you very much.

                                 ______
                                 

                    U.S.-Baltic Charter Achievements
                               political
  <bullet> Strengthening civil societies and consolidating the 
        transition to democracy
  <bullet> Supporting legislation that meets OSCE recommendations on 
        citizenship and fulfills Baltic obligations
  <bullet> Facilitating efforts by the Baltic states to establish 
        commissions on the legacy of the Nazi and Soviet occupation 
        years, including the Holocaust
  <bullet> Assisting the Riga Graduate Law School
  <bullet> Coordinating diplomatic efforts on regional issues, e.g. 
        Iraq
                                economic
  <bullet> Promoting a regional economic and commercial strategy to 
        attract investment and support economic integration into the 
        European Union and WTO
  <bullet> Establishing economic bilateral working groups to set 
        priorities and focus efforts
  <bullet> Bolstering U.S. investment and the role of the Baltic states 
        as a platform for access to European Union, Russian and 
        Northern European markets
  <bullet> Working with other structures, including Council of Baltic 
        Sea States, to maximize results, including cooperation in 
        combating organized crime
  <bullet> Engaging the private sector in economic bilateral working 
        groups and the Partnership Commission to advise us on U.S.-
        Baltic Charter implementation
  <bullet> Supporting the Baltic-American Enterprise Fund and the U.S.-
        Baltic Partnership Fund.
                                security
  <bullet> Completing the Kievenaar baseline assessment of Baltic 
        national defense forces
  <bullet> Achieving consensus with Baltic States on a political-
        military ``common agenda'' based on Baltic regional CSBMs, arms 
        control, and the Kievenaar study.
  <bullet> Helping establish BALTSEA, a regional security group that 
        coordinates donor assistance.
  <bullet> Working together on projects such as BaltBat, BaltNet, 
        Baltron, and the Baltic Defense College
  <bullet> Increasing significantly Foreign Military Financing (FMF)
                             larger context
  <bullet> Northern European Initiative (NEI) places Baltic policy in 
        broader context and expands cooperation with other regional 
        actors
  <bullet> Building on excellent ties with Nordic countries Engaging 
        Russia in a new era in regional cooperation

                                 ______
                                 

             U.S.-Baltic Partnership Commission Communique
    The inaugural session of the U.S.-Baltic Partnership Commission 
convened in Riga, Larvia on July 8, 1998. Latvia's President Guntis 
Ulmanis opened the session, and Foreign Minister Valdis Birkavs as host 
moderated the discussions. Foreign Minister Toomas Hendrik Ilves of 
Estonia, Foreign Minister Algirdas Saudargas of Lithuania, and Deputy 
Secretary of State Strobe Talbott of the United States led their 
countries' delegations. Rapporteurs from Economic and Security 
Bilateral Working Groups presented the results of their meetings in 
recent months. Private sector representatives met in conjunction with 
the Partnership Commission to recommend promising areas for business 
initiatives in U.S.-Baltic economic cooperation.
    The Partnership Commission was established under the Charter of 
Partnership among the Republics of Estonia, Latvia, and Lithuania and 
the United States of America which was signed on January 16, 1998. Its 
purpose is to review annually progress toward meeting Charter goals, 
and to assess and implement Charter commitments for bilateral 
cooperation in the political, economic, and security areas. Reflecting 
the Partners' common vision of a Europe whole and free, the goals of 
the Charter are jointly to create conditions for the full integration 
of Estonia, Latvia and Lithuania into European and trans-Atlantic 
political, economic, security and defense institutions, and to enhance 
democracy, prosperity, and security in the Baltic Sea region.
    In accordance with the principles enshrined in the Charter, the 
Partners have accomplished the following:

  <bullet> Committed themselves to promoting Baltic integration into 
        European and trans-Atlantic institutions, to furthering 
        democratic and economic development, to fostering stability, 
        and to maintaining and further promoting constructive and good 
        neighborly relations within the region.
  <bullet> Affirmed their determination to expand U.S.-Baltic economic 
        relations, particularly in the energy, transportation, 
        communication, technology, and environmental areas, through 
        building a public-private sector partnership focused on the 
        region.
  <bullet> Finalized plans for military cooperation in the year ahead, 
        noting their support for one another's positions on arms 
        control, regional security issues, and the Security Model in 
        Vienna.
  <bullet> Applauded the important progress that the Baltic states have 
        made toward social integration in line with OSCE principles.
  <bullet> Welcomed the continuous and practical work of Estonia, 
        Latvia, and Lithuania that will progress them toward, and 
        eventually through, the open doors of the Euro-Atlantic 
        community's evolving and expanding institutions, including the 
        new NATO.
  <bullet> Agreed to work together to assure in the near future the 
        accession of Latvia, Estonia, and Lithuania into the World 
        Trade Organization on appropriate commercial terms.
  <bullet> Promoted further regional cooperation through such fora as 
        the Council of Baltic Sea States and encouraged U.S. 
        involvement in CBSS activities, including in the fields of 
        environmental protection, nuclear safety, international trade, 
        and combating organized crime.
  <bullet> Welcomed the U.S. Northern European Initiative and agreed to 
        work together, and with the private sector, to identify and 
        implement concrete projects in this framework designed to 
        foster regional energy and transportation strategies, broader 
        trading and investment relationships, greater coordination in 
        the fight against organized crime, and focused efforts for the 
        protection of the environment.
  <bullet> Agreed to intensify efforts to promote the security, 
        prosperity and stability of the region, including the 
        participation of Russia in regional cooperation.

    The Partners concluded by identifying the key areas for U.S.-Baltic 
cooperation in the year ahead. They expressed their determination to 
more closely coordinate their diplomacy on a range of issues regarding 
regional cooperation as well as European security. They agreed to 
deepen economic cooperation in the target areas of energy, 
transportation, communication, and the environment and to seek ways of 
engaging the private sector more fully in these important spheres. The 
Partners stressed the importance of continuous U.S. military assistance 
for improving self-defense capabilities and the quality of military 
life, and for further implementation of Estonia's, Latvia's, and 
Lithuania's NATO interoperability objectives. In this context, the 
Partners agreed to move forward expeditiously in iinplementing the U.S. 
Defense Assessment study. They also committed themselves to achieving 
continued progress in fully integrating Latvia, Estonia, and Lithuania 
into European and trans-Atlantic institutions, including in supporting 
the preparations for integration with the European Union, NATO, and the 
World Trade Organization.
    Finally, the Partners agreed to convene the next U.S.-Baltic 
Partnership Commission in Washington, D.C. in 1999.

      Toomas Hendrik Ilves
      Minister of Foreign Affairs
      Republic of Estonia

      Valdis Birkavs
      Minister of Foreign Affairs
      Republic of Latvia

      Algirdas Saudargas
      Minister of Foreign Affairs
      Republic of Lithuania

      Strobe Talbott
      Deputy Secretary of State
      United States of America
    Joint Baltic American National Committee, Inc.,
                                       Rockville, MD 20850,
                                                     July 15, 1998.
            NATO Expansion Must Include the Baltic Countries
    The Joint Baltic American National Committee, Inc. (JBANC) 
represents over one million Americans of Estonian, Latvian and 
Lithuanian descent. JBANC extends its gratitude to Subcommittee 
Chairman Gordon Smith, Members of the Subcommittee and Committee 
Chairman Jesse Helms, for holding a hearing on Estonia, Latvia and 
Lithuania and U.S. Baltic Policy.
    NATO has successfully concluded its first round of current 
expansion. Poland, Hungary and the Czech Republic will become new 
members next April. This is as it should be. It strengthens the 
security and stability of Europe. And the security and stability of 
Europe is in the national interest of the United States.
    But it cannot stop there. The expansion must continue, and must 
include Estonia, Latvia and Lithuania. Without Baltic membership, 
America's desire to see a Europe whole and free, will not be fulfilled. 
Drawing new lines in Europe will be wrought with far greater dangers.
    The United States fought two world wars and a long, debilitating 
Cold War in Europe. Only too often, we have won wars, but lost the 
peace. This is an opportunity to learn from past mistakes. It is time 
to ensure that we will win and keep the peace, that Americans do not 
have to fight and die in Europe ever again. Only NATO can guarantee a 
democratic Europe, whole and free, secure in the knowledge that all the 
peoples of Europe can pursue their God-given right to live without 
outside intimidation or aggression.
    The 1997 NATO Summit in Madrid made it clear that geography is not 
a factor in NATO membership. It has also been made clear by the United 
States and its allies that ``spheres of influence'' cannot be tolerated 
in today's world. Such spheres, which have usually meant aggression by 
a large country against its smaller neighbors, have been the harbingers 
of wars to come.
    Estonia, Latvia and Lithuania have no choice about their geography. 
Russia's leaders even now object to NATO membership for countries in 
what they call ``the former Soviet space.'' Any Western statesmen who 
agree with the geography/sphere argument show concern only for Russia 
and not its former victims.
    Estonia, Latvia and Lithuania were independent countries before 
1940. They declared neutrality, but became victims of Soviet threats, 
aggression, occupation and forced annexation in the deadly game of the 
Nazi-Soviet Pact. There were no Western countries willing to help the 
Baltics. However, the United States and much of the West refused to 
recognize the Soviet annexation of the Baltic countries.
    The Baltics were forced into the ``former Soviet space'' against 
their will, were occupied through military aggression and were never 
willing participants in anything called ``Soviet.'' It was not until 
four years ago, in 1994, that they really regained their freedom, for 
that is when Russian troops finally left Estonia and Latvia. Most of 
the civilized world celebrated the end of World War Two decades ago. 
For the Balts, that war ended only four years ago. For the West to turn 
its back to the Baltic quest to return to its rightful place in the 
West, from which it was so cruelly torn, would be a violation of all 
imaginable human rights, including the rights to their respective 
national sovereignties that the three countries fully deserve after a 
long Soviet darkness.
    Estonia, Latvia and Lithuania, more than anyone, need security and 
stability to recover from half a century of forced Soviet terror and 
misrule. They have had to recreate democratic societies from scratch. 
They are now free countries with flourishing, stable free market 
economies. They do not need to have a large neighbor telling them how 
to behave. They want to be left alone, to pursue foreign and domestic 
policies as their long-suffering people see them. That means ties to 
the West. It means membership in the European Union. But most of all, 
it means the ability to be stable and secure in NATO.
    Despite starting from scratch, the Baltic countries are also 
producers of security. They do not look at NATO membership for their 
own protection alone. They are secure only if all others are secure. 
They are active members of the Parmership for Peace, they have 
peacekeeping troops in Bosnia and they are building their military 
forces according to Western and NATO standards.
    In short, Estonia, Latvia and Lithuania want to be a serious part 
of the Euro-Atlantic security architecture. Anything less than that 
will not enhance European security as a whole.
    The security of the United States, politically, economically and 
militarily, is tied to Europe. The United States can be secure only if 
Europe is secure. NATO enlargement is an opportunity to create a Europe 
that for the first time, is fully secure. It is, without any iota of 
doubt, a vital national interest of the United States.
    The overriding fact remains that American leadership is essential 
for European peace and stability. In turn, peace and stability in 
Europe is essential for America's own peace and security.
    Not many remember the turmoil and animosities in Western Europe 
before America and NATO came on the scene. NATO, with America's 
backing, created a democratic, stable and secure Western Europe. With 
the entrance of Poland, Hungary and the Czech Republic, NATO 
transcended the view that somehow, NATO should remain an exclusive 
Western European club. It showed that the East-West dividing line was 
broken and that dividing lines are dangerous.
    Denial of NATO membership to Estonia, Latvia and Lithuania will 
simply move that dividing line. It will not erase it. Rather, it will 
create a ``gray zone,'' a ``no-man's land,'' around the three Baltic 
countries that will consign them, in the manner of the Nazi-Soviet Pact 
or a new Yalta, to a sphere that Russia will immediately fill.
    For the sake of a peaceful, stable and secure Europe, whole and 
free, this must not be allowed to happen. The consequences of leaving 
the Baltic countries out of NATO will breed new instabilities that both 
Europe and America will learn to regret.
    Without Estonia, Latvia and Lithuania in NATO, Europe will not be 
secure. Thus, America will not be secure. It will not be a Europe, 
whole and free, steeped in democracy and inherently stable to pursue 
its endeavors in peace.
    Therefore, it is now time for a new vision. That vision is Estonia, 
Latvia and Lithuania as members of NATO, as part and parcel of the 
Euro-Atlantic Community. That vision should be pursued immediately, as 
the next round of NATO enlargement may be decided at the NATO Summit in 
Washington next April. Delay in enlarging NATO into the Baltics could 
be dangerous to a stable and peaceful Europe and to the security of the 
Euro-Atlantic community and to the national interest of the United 
States. Furthermore, any delay could be dangerous to the newly-free, 
democratic and freedom-loving Estonians, Latvians and Lithuanians.

            Sincerely,
                                    Aivars Osvalds,
               President, Amencan Latvian Association, Inc.

                                        Mati Koiva,
        President, Estonian American National Council, Inc.

                            John Rackauskas, Ph.D.,
               President, Lithuanian American Council, Inc.

                                 ______
                                 

          Statement of the Central and East European Coalition
    The Central and East European Coalition (CEEC) encompasses 19 
national grassroots organizations representing over 22 million 
Americans who trace their heritage to the countries of the region. The 
CEEC would like to thank Subcommittee Chairman Gordon Smith, Members of 
the Subcommittee and Committee Chairman Jesse Helms, for holding a 
hearing on Estonia, Latvia and Lithuania and U.S. Baltic Policy. The 
CEEC also extends its gratitude to the Senate for the overwhelming vote 
on the resolution of ratification on the accession of Poland, Hungary 
and the Czech Republic to becoming full NATO members.
    Since the restoration of Baltic independence, Estonia, Latvia and 
Lithuania have achieved success in implementing economic and democratic 
reforms and thus, integrating into Western structures. Despite the 
consequences of the fifty year Soviet occupation, Latvia and Estonia 
have made great strides in integrating the Russian-speaking populations 
into their societies.
    On January 16, 1998, the U.S.-Baltic Charter of Partnership was 
signed, emphasizing the U.S. commitment to the Baltic countries' 
integration into the West. However, six weeks after the charter 
signing, a series of events took place in Latvia, precipitating a 
Russian campaign of ill will. After local police reacted to the 
demonstration of pensioners in Riga, Russia vigorously renewed 
accusations of human rights violations against the Latvian government. 
Reports from the OSCE, EU, U.S. Embassy and private sources claim 
Latvia's government acted judiciously and with restraint.
    Latvia is making great strides in reconciling the situation by 
showing its willingness to compromise on the issue of citizenship. Yet, 
Russia continues pressuring Latvia, both economically and politically. 
We are concerned that this situation is a manifestation of a broader 
policy designed by Russia to keep its neighbors within its sphere of 
influence.
    The CEEC respectfully submits the following three recommendations 
to the subcommittee:
    First, admitting Poland, Hungary and the Czech Republic to NATO is 
part of a continuing enlargement process that serves as a vital 
insurance policy for the U.S. We believe NATO enlargement will be 
completed only when all nations, large and small, who express an 
interest in joining the alliance and meet membership criteria become 
members. The CEEC stresses its strong support for the open door policy 
for enlargement and urges that it be pursued vigorously.
    The European Security Act is an integral part of the NATO 
enlargement process. The Act designates Estonia, Latvia, Lithuania, 
Bulgaria and Romania as eligible to receive assistance under the 
program established under section 203 (a) of the NATO Participation Act 
of 1994 Due to the inclusion of the European Security Act in the State 
Department Authorization Act, HR1757, the CEEC expresses its strong 
support for HR1757 and we urge the President to sign it into law.
    The Coalition believes that any delay in the enlargement process 
will draw a new dividing line in Europe, leaving a vacuum which will 
encourage anti-Western forces in Russia to fill. In the long term, a 
delay would endanger peace and stability in Central and Eastern Europe 
which would adversely affect the security interests of the U.S.
    Second, the Coalition calls on the Senate to endorse the 
administration's FY99 budget request for Foreign Military Financing 
(FMF) and International Military Education and Training (IMET) in this 
year's Foreign Operations Appropriations Act. The CEEC supports the 
FY99 budget request of $3.3 billion for FMF which includes military 
assistance for Central and Eastern Europe aimed at programs improving 
military capabilities and strengthening interoperability and 
standardization th NATO. The CEEC also strongly supports the FY99 
budget request of $50 million for IMET which promotes efficient 
utilization of participating countries resources, thereby contributing 
to stability in Central and Eastern Europe.
    Third, the CEEC urges continued U.S. support to encourage dialogue 
between the governments of Latvia and Russia. In addition, we urge the 
U.S. to issue a public statement of disapproval of Russian interference 
in the internal affairs of its neighboring countries.
    In conclusion, stability in the Baltic Sea region enhances 
stability in all of Central and Eastern Europe which is in the national 
security and economic interests of the U.S.

                                 ______
                                 

               Lithuanian-American Community, Inc.,
                                        Arlington VA 22201,
                                                     June 26, 1998.
Hon. Gordon H. Smith,
Chairman, Subcommittee on European Affairs
U.S. Senate

Dear Mr. Chairman: The Lithuanian American Community would like you to 
know how much we appreciate your taking the initiative in calling 
hearings on Lithuania, Latvia, and Estonia. We strongly believe that 
any display of interest in this region by the Congress, the 
Administration, and the public contributes to the region's security. 
Furthermore, we believe that these hearings, followed by discussion, 
will help facilitate the formulation of a long-term United States 
policy regarding these countries.
    The Lithuanian American Community serves over one million Americans 
of Lithuanian heritage. We have chapters in 29 states and in the 
District of Columbia. We write today because we feel a responsibility 
to share with you and the members of your committee our concerns and 
recommendations.
    It is understood that the enlargement of NATO will be a gradual, 
step-by-step process which may take several years. The first round will 
be completed in April, 1999 with the formal admission to the Alliance 
of Hungary, Poland and the Czech Republic. In the ratification debate, 
voices were raised against any further enlargement of NATO. The 
Lithuanian American Community will forever remember the names of the 59 
Senators who rejected a proposal to deny any new members for the next 
three years. Here, our remarks address the concerns of those who oppose 
the admission of Lithuania, Latvia and Estonia.
    Without doubt, it is in the Baltic nations' best interest that 
Russia emerge from its present state a friendly, peaceful democratic 
partner of NATO and the European Union. For this reason, Lithuanians 
have supported the two-track policy of NATO enlargement linked to 
partnership and cooperation with Russia. However, the economic recovery 
of Russia will be beneficial to its neighbors only so long as it is not 
accompanied by the resurgence of the threat of Russian imperialism. At 
present, the Russian political elite has yet to be reconciled to the 
loss of its empire. Yeltsin and other Russian leaders have stated on 
the record that all territory formerly designated part of the Soviet 
Union should be considered part of an exclusive Russian sphere of 
influence, untouchable by NATO or anyone else. Most important and 
significant of all is the politically and morally outrageous assertion 
made by the present Russian government that the incorporation of the 
Baltic states into the Soviet Union by Stalin in 1940 was a consequence 
of the freely expressed will of these nations. In effect, the present 
Russian government sanctions the partition of east central Europe 
between Hitler and Stalin. Furthermore, the attempt to suppress the 
Chechnya revolt, as well as Russian military intervention in Georgia, 
Azerbajian and Moldavia took place under Yeltsin, who is considered in 
the west as moderate. There remains uncertainty about the future of 
Russian leadership and the possibility of hard liners coming to power. 
In this context, Russian attempts to deny Baltic nations their right to 
choose their own allies must be considered a threat to their 
sovereignty.
    The enlargement of NATO could make Russian imperialist ambitions 
unrealistic, thus prompting Moscow to accept its present borders as 
definitive and to focus Russian attention and resources on internal 
recovery. A freeze on further NATO enlargement would have the opposite 
effect. It would mean another permanent division of central Europe into 
two spheres of influence: that of NATO and that of Russia. Furthermore, 
it could encourage the Russian imperialist dream of regaining its 
former control over its smaller neighbors, who have been deprived of 
the opportunity to join the defensive structures of the Atlantic 
community.
Opposition to any further NATO enlargement is based on three false 
        contentions:
    1. That the admission of Baltic countries would provoke Russia and 
may lead to preventive military measures.
    NATO has been expanded three times in the past. In each case, 
Moscow tried to prevent the expansion with the threat of military, and 
at times, nuclear confrontation. The allies never wavered under 
pressure. The allies knew that yielding to the threats would inevitably 
lead to the dangerous escalation of military blackmail. Consequently, 
in each case, the allies called the Soviet bluff
    2. That NATO should respect Russian security interests.
    Supporters of this contention argue that the silent recognition of 
``traditional spheres of influence'' fosters lasting cooperation and 
friendship between America and Russia. We remind the subcommittee that 
this reasoning led to the Yalta and Potsdam Agreements, which left all 
of Europe east of the Elbe River under Soviet domination. History shows 
us that these treaties were unsuccessftil and the Cold War followed. 
Today, though the Soviet empire has disintegrated, the Russian elite's 
ambition to restore it is still alive. The United States' efforts to 
maintain peace and to curb the proliferation of amns and state 
terrorism has been challenged by Russia all over the world. The United 
States should draw a lesson from past experience and never again give 
preference to Russia's security concerns at the expense of its 
neighbors.
    3. That Lithuania, Latvia and Estonia are indefensible and could be 
crushed by Russia's military might in a matter of days.
    West Berlin was also indefensible and was surrounded by East German 
and Soviet troops. One American battalion was there to signal that any 
attempt to occupy Berlin would trigger a war with NATO. Because of the 
allies' determination, free Berlin survived without a loss of one 
single Allied soldier.
Recommendations
    1. The Senate should support the Administration's position that the 
``new NATO members will not be the last'' (Madeleine Albright) and 
support a second round of enlargement. The Senate should offer support 
to President Clinton's statement that ``The U.S. welcomes the 
aspirations and supports the efforts of Lithuania, Latvia and Estonia 
to join NATO.'' We trust that Congress will preserve a place for the 
integration of these countries within NATO on the agenda of U. S. 
foreign policy.
    2. The Congress should be absolutely clear in expressing its 
opposition to any attempt to intimidate Lithuania, Latvia or Estonia by 
threats of force. It should make it known that threats of this nature, 
as well as by economic pressures, would be unacceptable to the Untied 
States and prohibitively expensive to Moscow. Any ambiguity concerning 
United States reaction could easily lead to fatal miscalculations.
    3. As an interim security measure, the U.S. should implement the 
Baltic Charter and strengthen lateral military cooperation with 
Lithuania and the two other states under the Partnership for Peace.
    Lithuania regained its independence in 1990 and its people 
successfully resisted a Soviet military onslaught on the Lithuanian 
parliament in Vilnius. This event in Lithuania's struggle for freedom 
inspired other Baltic countries and contributed greatly to the 
disintegration of the Soviet Union. Since that time, Lithuanian 
democracy has taken deep roots. The State Department's Democracy and 
Human Rights Office reports that the country has been making steady 
progress in developing a market economy. Inflation is under control and 
the GDP rose to 6.4 per cent. Over 40 percent of state property has now 
been privatized. Lithuania is steadily making great progress in meeting 
the military standards of NATO. There is a healthy respect for human 
rights and efforts are being made to solve remaining problems. 
Lithuania has no conflict and no border dispute with any of its 
neighbors. Russians are offered access to all transit facilities, thus 
allowing transport and communication with the Kaliningrad area, and 
Lithuania and Poland are friends, closely cooperating and supporting 
each other. Additionally a border treaty was recently signed with 
Belarus and Russia.
    The Lithuanian people want to belong to the community of democratic 
nations and to share the defense of our common values. Americans of 
Lithuanian heritage appeal to Congress, the Administration and the 
American people: do not reject the aspirations of these small but 
courageous nations who are striving so hard to win the security and 
protection of their regained freedom and democracy. Do not extinguish 
the light at the end of the tunnel.
            Sincerely,
                           Regina F. Narusis, J.D.,
                                                 President.

                                 ______
                                 

              Baltic American Freedom League, Inc.,
                                     Los Angeles, CA 90029,
                                                      July 9, 1998.
Hon. Gordon Smith,
Chairman, Subcommittee on European Affairs
Foreign Relations Committee,
U.S. Senate
Washington, DC 20510

Dear Senator Smith: The Baltic American Freedom League and the Baltic 
American community gratefully acknowledge the Senate's unbroken past 
support for the people of Estonia, Latvia and Lithuania in their long 
struggle for freedom and independence and acknowledge Senate's current 
assistance to develop free and viable democracies.
    The Baltic American Freedom League welcomes the subcommittee's 
hearing on the Baltic countries; we look forward to the hearing with 
great enthusiasm. We hope that this is a first step in the continued 
examination of U.S. - Baltic relations.
    We have taken the liberty to submit the Baltic American Freedom 
League's Policy Statement on issues that are of vital importance to the 
Baltic American community and urge that they be reviewed and discussed 
by the committee either at the July 15th or subsequent hearings.
    The Baltic American Freedom League is a nationwide grassroots 
organization of 16,000 members established 16 years ago to work for 
expanding the already strong U.S. ties with the Baltic countries.
    Thank you again for your serious dedication to the issues of 
concern to the Baltic people. I am looking forward to meeting you at 
the hearing.
            Respectfully,
                             Valdis, V. Pavlovskis,
                                                 President.

Enclosures:
    Baltic American Freedom League's Policy Statement
    Declaration on the Occupation of Latvia by the Parliament of Latvia
    Baltic American Freedom League's Report ``Estonia, Lithuania Were 
            Never Soviet Republics''

                                 ______
                                 

              Baltic American Freedom League, Inc.,
                                     Los Angeles, CA 90029,
                                                     July 15, 1998.
           Baltic American Freedom League's Policy Statement
    In order to assure the continued, meaningful implementation of 
America's support for the security and independence of the Baltic 
countries, the Baltic American Freedom League recommends to the United 
States Senate the following:
NATO Enlargement
    The United States Baltic Charter enshrines the precept that the 
United States has a ``real, profound and enduring interest'' in the 
security and sovereignty of the Baltic countries. And while the Charter 
does not guarantee NATO membership, it offers the United States' 
explicit support for the Baltic nations' efforts to join. As President 
Clinton said at the signing ceremony: ``America is determined to create 
the conditions under which Estonia, Lithuania and Latvia can one day 
walk through that door [NATO].''
    The Charter embodies a moral and political commitment to Baltic 
independence, sovereignty and territorial integrity.
    The Baltic American community is concerned, nevertheless, that 
because of Russian opposition Baltic membership in NATO might be 
unnecessarily and unfairly delayed. The United States never accepted 
the Soviet annexation of the Baltic nations. Now, it should honor the 
same principle by ensuring that no country, by virtue of size or 
history, determine another's fate.
    The ``open door strategy'' agreed to in Madrid in 1997 must be 
adhered to. The Baltic countries are part of the democratic West. The 
U.S. Senate has determined that they have achieved outstanding results, 
developing as free, democratic and free market nations, establishing 
rule of law and civilian control over the military. They are 
responsible members of regional and international organizations and 
participate in the Partnership for Peace program. They must not be 
discriminated against because of geopolitical, historical or 
chauvinistic reasons.
    To delay, without cause, Baltic membership in NATO is to consign 
them to strategic ambiguity and to sow the seeds of future instability. 
Without the NATO security guarantee, Russia would be further tempted to 
meddle in the affairs of the Baltic nations as they are doing in the 
CIS states and are already attempting to do in the Baltic countries. 
Refusing membership out of fear of Russian reaction would tacitly 
recognize a Russian veto over NATO affairs, thus undermining the 
alliance and would delegate the Balts to Russia's sphere of influence.
    Baltic membership in NATO will define their place in Europe. They 
will no longer be within Russia's sphere of influence to be manipulated 
and bullied into complying with the wishes of their powerful eastern 
neighbor. They will be part of the West where they belong and want to 
be.
    As for a threat to Russia, this is sheer nonsense. None of the 
Baltic countries has any designs on Russia. Russia lost its empire but 
its homeland is secure. Russia's concern is not about its security but 
about its vanished empire. NATO membership to the Balts means the 
definitive end of the Soviet domination of the Baltic countries. This 
upsets the Russians. But as the Washington Post noted in a recent 
editorial, the Baits should not be told ``that they must accept less 
security so that an unthreatened Russia may enjoy more pride.''
    We respectfully urge the United States Senate to consider Estonia, 
Latvia and Lithuania for NATO membership at the earliest possible date 
once they meet the criteria for NATO membership.
Financial Assistance
    Last year's soft earmark of $18.3 million in Foreign Military 
Funding (FMF) was a major source of support for the Baltic nations as 
they bring their militaries to NATO standards as well as a strong 
statement of political support of these democratic allied countries. 
This funding contributed to the creation of a regional airspace 
surveillance center and the provision of training and equipment from 
the United States on a grant basis.
    The Baltic American Freedom League urges a continuation of last 
year's funding of $18.3 million in FMF grant assistance. Baltic defense 
needs and abilities continue to grow and this grant assistance will 
allow the continued provision of training and equipment needed to 
consolidate the transition of the Baltic militaries. Continued 
assistance at last year's levels will allow full integration of the 
airspace of Estonia, Latvia and Lithuania with NATO equipment and 
standards for participation in Partnership for Peace activities.
    Fiscal Year 1999 marks the last funding for any of the Baltic 
countries from Support for East European Democracies (SEED) monies, 
marking the success of these three countries in the areas of democratic 
and economic reform. However, the continuation of programs previously 
covered under the SEED program, including law enforcement programs 
provided by the State Department and Department of Justice, is a high 
priority despite termination of SEED assistance program.
    We also urge full funding of the International Criminal Justice 
program in law enforcement for the Baltic governments within the 
Department of State. The law enforcement program has been identified by 
the Baltic governments and the U.S. as one of the top priorities in our 
bilateral relationship. The programs include law enforcement education 
programs and training designed to counter the influence of crime and 
corruption, enhance border control and protect intellectual property 
rights, stem financial crimes and the smuggling of aliens, narcotics 
and illegal goods.
    As an additional support to law enforcement, to fight organized 
crime and to investigate human and civil rights violations, we strongly 
recommend that a Federal Bureau of Investigation office be opened in 
Riga, Latvia.
    The Baltic American Freedom League supports full funding for 
International Military Education and Training (IMET) assistance of 
$650,000 per country as proposed by the Administration. IMET provides 
much needed military education training to Baltic militaries and to the 
Baltic Battalion (BALTBAT).
Hitler-Stalin Pact of 1939
    Historians of the 21st century will chronicle many a tragedy for 
mankind which took place during the century--world wars, rise of 
Communist and Nazi totalitarianism, genocide, military occupation, mass 
deportations, attempts to destroy cultural and ethnic heritage, and 
denial of human rights. The historians will also record that every one 
of these tragedies befell the people of the illegally occupied 
countries of Estonia, Latvia and Lithuania as a result of the nefarious 
Hitler-Stalin Pact.
    Not only has Russia, the successor state of the Soviet Union, 
failed to acknowledge the illegal and forceful occupation of the Baltic 
countries, but to this date Moscow adheres to the spirit of the Hitler-
Stalin Pact. It is the only treaty of World War II still observed.
    Russia continuously tries to reassert its prerogatives under the 
Pact to include the Baltic countries within its sphere of influence. It 
gives Russia a hunting license to go after Baltic sovereignty. The 
longer Russia is free to make their own rules about interfering in 
their free and democratic neighbor's affairs, the harder it will be to 
stop later on. The Hitler-Stalin Pact has to be renounced and nullified 
now.
    On May 12, 1998, Russian Foreign Minister Yevgeny M. Primakov was 
quoted in the Rossiyskay Gazeta as declaring that Baltic membership in 
NATO is a ``red line'' that Russia cannot allow to be crossed. And in 
Vilnius on June 13, 1998, Mr. Primakov again declared, ``The joining of 
the Baltic States into NATO is unacceptable since it creates certain 
inconveniences and dangers and infringes on our interest in 
geopolitical terms.'' These statements show how far Russia still falls 
short of international standards and are clear pronouncements that 
Russia regards and claims the Baltic countries within its sphere of 
influence.
    The Baltic American Freedom League respectfully requests that the 
U.S. Senate adopt a resolution:

  <bullet> reaffirming United States continued support for the Baltic 
        countries as sovereign and independent nations;
  <bullet> condemning the Stalin-Hitler Pact with the resulting Baltic 
        Holocaust;
  <bullet> asking Russia to acknowledge and take the responsibility for 
        the illegal and forceful occupation of the Baltic countries.

    By repudiating the acts of two of this centuries greatest tyrants 
will give the Baltic peoples reassurance that Russia has broken with 
the expansionist ways of its predecessor and show that Russia is 
prepared to deal with the Baltic nations as sovereign and independent 
nations.
Demilitarization of Koenignsberg (Kaliningrad)
    The Russian military district of Kaliningrad renamed after Soviet 
occupation remains one of the unsettled issues of the post World War II 
allied administration of occupied territories. While at Potsdam the 
allies agreed that ``pending the final determination of territorial 
questions at the peace settlement,'' the region should be placed 
temporarily under Soviet control, the ``final determination'' was never 
made.
    Today, Koenigsberg is the most militarized region in Europe. The 
London based Institute of Strategic Studies puts the number of ground 
troops in Koenigsberg at 19,000, one-tenth the size of Poland's forces 
or three-quarters of the Baltic countries' armed forces and one and 
one-half times larger than Lithuanian armed forces. The Russian Baltic 
Fleet has six submarines, about 32 principal surface warships and 
nearly 100 combat aircraft. The Air Defense units include one regiment 
of Su-27 fighters and three regiments of surface-to-air missiles. As 
recently as June 12, 1998, Russian newspaper Russkiy Telegraf reported 
that according to the head of the Foreign Affairs Department of 
Russia's Ministry of Defense, Lieutenant General Leonid Ivashovs, 
Russia might place tactical nuclear weapons in Koenigsberg region, in 
response to NATO enlargement.
    The military and political stability of the entire Baltic area is 
jeopardized by both the heavy concentration of military power and the 
demands for military transit on the neighboring countries. It should be 
noted that the Russian armed forces habitually and with impudence and 
contempt violate the laws and regulations of Lithuania and Latvia 
governing military transit.
    The United States, Great Britain and France have a special 
responsibility to defuse this dangerous situation generated by the 
Kaliningrad military region as it was they who at Potsdam in an attempt 
to placate Joseph Stalin, approved the establishment of this fortress.
    The Baltic American Freedom League respectfully recommends that the 
U.S. Senate adopt an appropriate resolution directing the President to 
take all necessary measures to encourage Russia to demilitarize the 
Kaliningrad military district.

                              Valdis V. Pavlovskis,
                                                 President.

                                 <all>
</pre></body></html>
